<html>
<title> - RESPONDING TO DROUGHT AND FAMINE IN THE HORN OF AFRICA</title>
<body><pre>[Senate Hearing 112-200]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 112-200

         RESPONDING TO DROUGHT AND FAMINE IN THE HORN OF AFRICA

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             AUGUST 3, 2011

                               __________

       Printed for the use of the Committee on Foreign Relations



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>






      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
72-393 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
              Frank G. Lowenstein, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                         ------------          

                SUBCOMMITTEE ON AFRICAN AFFAIRS        

            CHRISTOPHER A. COONS, Delaware, Chairman        

BENJAMIN L. CARDIN, Maryland         JOHNNY ISAKSON, Georgia
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
RICHARD J. DURBIN, Illinois          MIKE LEE, Utah
TOM UDALL, New Mexico                BOB CORKER, Tennessee

                              (ii)        






                            C O N T E N T S

                              ----------                              
                                                                   Page

Brigety, Dr. Reuben, Deputy Assistant Secretary of State, Bureau 
  of Population, Refugees, and Migration, U.S. Department of 
  State, Washington, DC..........................................    13
    Prepared statement...........................................    15
    Responses to questions submitted for the record by Senator 
      Benjamin L. Cardin.........................................    60
Coons, Hon. Christopher A., U.S. Senator from Delaware, opening 
  statement......................................................     1
Isakson, Hon. Johnny, U.S. Senator from Georgia, opening 
  statement......................................................     4
Konyndyk, Jeremy, director of policy and advocacy, Mercy Corps, 
  Washington, DC.................................................    26
    Prepared statement...........................................    28
Lindborg, Hon. Nancy, Assistant Administrator, Bureau for 
  Democracy, Conflict, and Humanitarian Assistance, U.S. Agency 
  for International Development (USAID), Washington, DC..........     8
    Prepared statement...........................................    10
    Responses to questions submitted for the record by Senator 
      Benjamin L. Cardin.........................................    58
Pham, Dr. J. Peter, director, Michael S. Ansari Africa Center, 
  Atlantic Council, Washington, DC...............................    35
    Prepared statement...........................................    37
Schaap, Wouter, assistant country director, Care International 
  Somalia, Nairobi, Kenya........................................    41
    Prepared statement...........................................    43
Yamamoto, Hon. Donald, Principal Deputy Assistant Secretary of 
  State, Bureau of African Affairs, U.S. Department of State, 
  Washington, DC.................................................     4
    Prepared statement...........................................     6

              Additional Material Submitted for the Record

United Nations Children's Fund (UNICEF), prepared statement......    57

                                 (iii)



 
         RESPONDING TO DROUGHT AND FAMINE IN THE HORN OF AFRICA

                              ----------                              


                       WEDNESDAY, AUGUST 3, 2011

                               U.S. Senate,
                   Subcommittee on African Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Christopher 
A. Coons (chairman of the subcommittee) presiding.
    Present: Senators Coons and Isakson.

        OPENING STATEMENT OF HON. CHRISTOPHER A. COONS,
                   U.S. SENATOR FROM DELAWARE

    Senator Coons. I would like to call to order today's 
hearing focusing on one of the most critical issues in the 
world today, responding to the drought and famine in the Horn 
of Africa.
    As always, I'm privileged to serve with my friend, Senator 
Isakson, and want to thank him for staying with me here in 
Washington after the Senate has adjourned in order to help 
convene and preside over today's hearing.
    This is a children's crisis. There are hundreds of 
thousands of children on the verge of death suffering from 
severe malnutrition in the Horn of Africa. And Senator Isakson 
and I agreed that this hearing could not wait. So, even while 
many of our colleagues have understandably returned to their 
home States and districts, we both believed it was crucial that 
we go ahead with this hearing today and not let another month 
go by.
    Senator Isakson has been a true and good partner in 
highlighting a range of compelling issues and shared concerns 
in Africa, and I greatly appreciate his leadership on this 
subcommittee.
    As everyone is well aware, the U.S. Congress has been 
almost entirely focused on the deficit and debt crisis in 
recent weeks, and while that issue was rightfully at the top of 
the agenda of the United States, we must also consider global 
issues of greater humanitarian concern, especially when 
millions of lives are at risk and tens of thousands have 
already died.
    Today we have displayed in the front of the hearing room 
images of the crisis in the Horn of Africa in order to 
demonstrate the rising human toll of the drought and famine, 
including on children who are facing unspeakable deprivation 
and hardship. In today's hearing, we will list numbers that 
quantify the impact of the drought, but it is these images that 
help convey powerfully the true impact on human lives.
    I want to thank at the outset UNICEF for its vital work on 
behalf of children worldwide and providing the photographs 
we've displayed at today's hearing. UNICEF has also submitted a 
statement detailing its efforts in the Horn of Africa that I 
will submit for the record.
    The crisis in the Horn of Africa has been caused by the 
worst drought in the region in more than 60 years, resulting in 
severe malnutrition, acute hunger, rising levels of starvation, 
and famine in Somalia. It is the most severe humanitarian 
crisis in a generation, affecting food security for more than 
12 million people across Somalia, Ethiopia, Kenya, Djibouti, 
and surrounding areas.
    According to UNICEF, an estimated 2.3 million children in 
the region are acutely malnourished, half a million of whom are 
at risk of imminent death. Unfortunately, this crisis is 
expected to worsen in the coming months, eclipsing the famine 
in Ethiopia in the mid-1980s that elicited first global public 
outcry and then a great response, as demonstrated by memorable 
events, such as Live Aid. The broad public awareness of that 
crisis in the 1980s appears to be absent today, despite a 
worsening humanitarian situation and increasing need for aid.
    The situation is the most severe in Somalia where rising 
food prices and failures of governance and regional security 
have exacerbated an already dire situation, given the ongoing 
conflict, poor governance, and obstructed humanitarian access 
by the group 
al-Shabaab.
    Aid organizations and U.S. Government officials estimate 
more than 1,500 refugees every day are leaving Somalia for 
Kenya, flooding the world's largest refugee campaign in Dadaab, 
which is well over capacity, nearing half a million refugees, 
or a population comparable to Tucson, AZ. Hundreds of Somalis 
are also fleeing every day for the Dolo Ado camp and other 
camps in Ethiopia, also well over its capacity with more than 
100,000 refugees.
    The international community and the United States are 
working closely with the Governments of Kenya, Ethiopia, and 
Djibouti to address this massive transnational influx of 
refugees, and I praise their efforts to accommodate these 
displaced populations while their own people and their own 
countries also face severe challenges from the drought.
    The countries impacted by this drought and famine are among 
the world's poorest, suffering from high rates of poverty and 
unemployment. And while the failure of two consecutive rainy 
seasons contributed to the scale of this disaster, the 
humanitarian crisis and famine that has resulted highlights 
broader capacity, governance, infrastructure, and security 
problems and needs in the region.
    This drought was not a surprise. USAID, through its famine 
early warning system, or FEWS NET, predicted an impending 
crisis last year and worked closely with the Kenyan and 
Ethiopian Governments as well as our own to enhance their 
ability to respond and preposition emergency relief supplies.
    As the United States joins with its partners in the 
international community to provide emergency assistance, we 
must also consider the lessons learned in order to avert the 
next famine, to improve food security globally, to build 
sustainable capacity, and mitigate the impact of this crisis on 
future generations.
    In response to the drought, the United States has been the 
largest international donor, providing more than $450 million 
in food aid, critically needed treatment for malnourished 
children, health care, and other assistance. But the 
responsibility cannot rest on our shoulders alone. Especially 
in difficult budgetary times, the humanitarian response to this 
crisis must be a shared transnational obligation.
    According to the United Nations, more than $2 billion will 
be needed to provide emergency assistance, and only a billion 
has so far been committed. The international community must 
join the United States and many others in providing this 
critical aid in the near term in order to save lives, 
especially those of malnourished children and others in 
desperate need.
    As we consider the international response to this crisis, 
we must also examine restrictions on access given the volatile 
security environment in Somalia where the United Nations 
recently declared a famine in southern areas controlled by al-
Shabaab. Just yesterday the U.S. Government announced an easing 
of restrictions on humanitarian organizations operating in 
Somalia in order to facilitate the delivery of aid. I look 
forward to hearing from today's witnesses about this new 
policy, which aims to provide additional guidance and 
assurances to U.S. partner organizations' operation in southern 
Somalia.
    To hear more about the scope, impact, and response to the 
crisis, we are privileged to be joined by two distinguished 
panels. First, we will hear from Nancy Lindborg, Assistant 
Administrator for the Bureau of Democracy, Conflict, and 
Humanitarian Assistance for USAID, and former president of 
Mercy Corps. Ms. Lindborg will also be joined on this panel by 
Ambassador Donald Yamamoto, Principal Deputy Assistant 
Secretary of State for African Affairs, and former Ambassador 
to Ethiopia and Djibouti. We will finally hear from Dr. Reuben 
Brigety, the Deputy Assistant Secretary of State for 
Population, Refugees, and Migration, and a former fellow at the 
Council on Foreign Relations, who has just returned from a 
visit to the region.
    On the second panel, we will hear from Mr. Jeremy Konyndyk, 
director of policy and advocacy for Mercy Corps, who has led 
humanitarian and post-conflict recovery operations throughout 
the region. Next will be Dr. Peter Pham, director of the 
Michael Ansari Africa Center of the Atlantic Council, and a 
former professor of justice studies, political science, and 
Africana studies at James Madison University. Finally, we will 
hear from Mr. Wouter Schaap, the assistant country director for 
CARE International Somalia, who is based in Nairobi and 
recently returned from a visit to drought-affected areas of 
Somalia.
    I am privileged to chair this hearing and highlight the 
growing urgency of this grave humanitarian crisis. Americans 
have demonstrated great leadership, helping those in need both 
domestically and abroad. And I am confident we can continue to 
partner with the international community to save lives and 
protect future generations in the Horn of Africa.
    I appreciate each of our witnesses being here today and 
look forward to your testimony.
    Senator Isakson.

           OPENING STATEMENT OF HON. JOHNNY ISAKSON,
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Well, thank you, Chairman Coons, and I 
want to welcome all those who will testify today. I want to 
particularly thank Wouter Schaap from CARE USA, headquartered 
in my hometown of Atlanta, GA, for being here, as well as so 
many of the other CARE people that are here.
    I have had the privilege of being on site with CARE in 
Kenya, Tanzania, Ethiopia, and in Darfur in the Sudan, and seen 
firsthand what our NGOs do to deliver humanitarian aid, as well 
as in the case of CARE, life-sustaining techniques that people 
can learn to be self-sustaining amongst themselves, which is so 
critical in areas of bad poverty and poor education. So, I 
appreciate CARE being here and testifying today. I am always 
proud to have my home team here talking about the good things 
that they do.
    And for Dr. Peter Pham, who is also on the second panel, I 
am particularly delighted that he is here because he can 
provide insights as an informed observer of the regional 
anarchical, political, and security dynamic without the 
constraints an NGO must maintain in describing the situation, 
given the exposure of the staff. He will be able to examine the 
persistent extremist vein that runs through Somalia, and the 
perverse impact it has on the region and international donors.
    The severity of this crisis and the complexity of the 
geopolitical situation in the region, coupled with the U.N. and 
the United States own challenging history dealing with hunger 
and conflict in Somalia make this a particularly challenging 
humanitarian response. It is in such places that the principles 
of our policies are tested, both our humanitarian impulse as 
well as our hard-nosed realism regarding the purveyors of 
violence who impose illegitimate and moral control over the 
people and the region.
    I am delighted that the chairman called this hearing today. 
This is one of the main humanitarian crises before the world 
today, and we need to work together to see to it that we bring 
humanitarian relief to a people struggling in a terrible part 
of the world.
    So, Mr. Chairman, thank you for calling this hearing today, 
and I look forward to hearing the testimony of all our 
witnesses.
    Senator Coons. Thank you, Senator Isakson.
    We will begin with the opening statement of Ambassador 
Yamamoto, and then Ms. Nancy Lindborg, and then Dr. Brigety, in 
that order, and then we will proceed to questions, if we might.
    Ambassador.

 STATEMENT OF HON. DONALD YAMAMOTO, PRINCIPAL DEPUTY ASSISTANT 
 SECRETARY OF STATE, BUREAU OF AFRICAN AFFAIRS, DEPARTMENT OF 
                     STATE, WASHINGTON, DC

    Ambassador Yamamoto. Thank you very much. I have a longer 
version for submission for the record, so I will read a short 
version, sir.
    Senator Coons. Thank you. I would encourage 5-minute 
statements, if that is possible. And without objection, we will 
submit your full statements for the record. Thank you.
    Ambassador Yamamoto. Chairman Coons, and Ranking Member 
Isakson, and members of the committee, the worst humanitarian 
crisis in the Horn of Africa in 60 years has its roots in the 
brutal force of al-Shabaab, which has until now prevented 
humanitarian assistance from reaching those most in need, 
persistent instability in Somalia and changing regional climate 
pattern that impact vulnerable pastoral populations.
    We are working hard with our international and regional 
partners to deliver quickly the life-saving, short-term relief 
critical to those suffering the effects of this crisis. U.S. 
Government and U.S.-funded assistance has prevented the loss of 
millions of lives. At the same time, we cannot rely on 
emergency assistance alone to resolve the underlying long-term 
problems in the region. Therefore, we are working with those 
governments in the region to support long-term political and 
food security in the region.
    Let me be clear. The response to the drought has been 
complicated by the continuing instability in Somalia, 
especially due to the actions al-Shabaab. Those most seriously 
affected by the current famine are the more than the 2 million 
Somalis trapped in al-Shabaab-controlled areas in South Central 
Somalia.
    Since January 2010, al-Shabaab has largely prohibited 
international humanitarian workers and organizations from 
operating in the areas it controls. Al-Shabaab continues to 
refuse to grant humanitarian access, and has prevented the 
international community from responding quickly inside Somalia.
    As we seek to take advantage of any current openings to 
expand aid distribution, we are also working with our partners 
in the international community to counter al-Shabaab's ability 
to threaten our interests or continue to hold the Somalia 
people hostage. At the same time, we are taking the necessary 
steps to support the flow of urgently needed humanitarian aid 
to those who need it in South Central Somalia, while working to 
minimize any risk of diversion to al-Shabaab.
    We have worked closely with the Department of Treasury to 
ensure that aid workers, who are partnering with the U.S. 
Government to help saves lives under difficult and dangerous 
conditions, are not in conflict with U.S. laws and regulations. 
However, the United States sanctions against al-Shabaab do not 
and never have prohibited the delivery of assistance to 
Somalia, including to those areas under the de facto control of 
Shabaab.
    In the long term, regional security in the Horn of Africa 
requires political stability in Somalia. The United States 
already has placed a long-term process to stabilize Somalia. 
Last year, we announced our dual track approach to broaden our 
efforts by taking into account the complex nature of Somali 
society and politics, as well as to be more flexible and 
adaptable to our engagement.
    On track one, we continue to support the Djibouti peace 
process, the TFG, the transitional government, Amazon, as the 
first line of efforts to stabilize Somalia and expel Shabaab 
from Mogadishu.
    Since 2007, the United States has supported stabilization 
efforts by obligating $258 million to support Amazon training, 
logistical needs, and approximately $85 million to support and 
build capacity to the TFG forces.
    On track two, we are deepening our engagement with the 
regional government and administrations throughout the Central 
and South Somali area, and those who are close to Shabaab, but 
who are not affiliated with the TFG. In fiscal year 2011, the 
United States plans to provide approximately $21 million to 
support development efforts in our dual track policy.
    We have further information as we go on to the Q&As, and I 
want to leave room for my colleagues to speak. So, thank you 
very much, Senator.
    [The prepared statement of Mr. Yamamoto follows:]

Prepared Statement of Principal Deputy Assistant Secretary Don Yamamoto

    Good morning, Chairman Coons, Ranking Member Isakson, and members 
of the committee. Thank you for holding this hearing on the drought and 
famine in the Horn of Africa. We share your grave concern about the 
ongoing humanitarian crisis in the Horn of Africa. The eastern Horn of 
Africa is currently experiencing one of the worst droughts since the 
1950s. More than 12 million people--mainly in Ethiopia, Kenya, and 
Somalia--are severely affected and in need of humanitarian assistance. 
In Somalia, drought conditions have exacerbated a complex emergency 
that has continued since 1991. The information coming out of the Horn 
of Africa, especially the dire situation of refugees from Somalia, is 
devastating. In cooperation with our international and regional 
partners, we will continue to work to address this humanitarian crisis 
while continuing to support long-term political and food security in 
the region.
    Somalia is at the center of the crisis, but the crisis is affecting 
the entire Horn of Africa. Ethiopia has issued an appeal indicating 4.5 
million Ethiopians need food assistance. In Kenya, the government and a 
consortium of NGOs have placed 10 districts in the north and east under 
alert for increased food insecurity and malnutrition. The crisis has 
hit hardest in Somalia, where failed or poor rains combined with 
conflict have left 3.7 million people in need of immediate, lifesaving 
assistance. Two areas of southern Somalia, the Lower Shabelle Region 
and areas of the Bakool region, are currently facing famine conditions, 
and the remaining regions of southern Somalia are projected to meet the 
threshold for famine unless humanitarian assistance is significantly 
increased.
    The number of refugees and internally displaced persons (IDPs) 
across the region has increased the challenges of drought response. 
There are approximately 620,000 Somali refugees in the eastern Horn 
region, according the U.N. High Commissioner for Refugees (UNHCR), with 
200,000 of these fleeing in the past year alone. Reports from inside 
Somalia indicate the combined arrival rate of 2,000 new refugees per 
day in Ethiopia and Kenya could rise dramatically as the situation in 
Somalia grows increasingly desperate. The current flows threaten to 
overwhelm the existing refugee assistance structure in Kenya and 
Ethiopia. Moreover, there are reports of over 400,000 IDPs in Mogadishu 
alone.
    A large-scale multidonor intervention--my colleagues will go into 
greater depth on this is underway to prevent the further decline of an 
already dire situation, but there will be no quick fix. The United 
States is one of the largest donors of emergency assistance to the 
region, helping more than 4.5 million of those in need in Ethiopia, 
Kenya, Somalia, and Djibouti and providing nearly $459 million in 
humanitarian assistance to date. Our assistance includes food, 
treatment for severely malnourished people, health care, clean water, 
proper sanitation, and hygiene education and supplies. Our assistance 
also includes $69 million for refugee assistance in Kenya, Ethiopia, 
and Djibouti. The U.S. Government has previously supported the 
expansion of the Dadaab camps, and we understand that the Government of 
Kenya has agreed to allow new refugees to begin occupying the new 
areas. Our Embassy in Nairobi is actively engaged with the Kenyans to 
ensure the best possible emergency response. I know my colleagues 
Principal Deputy Assistant Secretary Reuben Brigety and Assistant 
Administrator Nancy Lindborg will go into greater detail about these 
conditions in their testimony. I would like to turn now to the 
political complications of the drought in Somalia.
    The response to the drought has been complicated by the continuing 
instability in Somalia--especially due to the actions of al-Shabaab. 
Those most seriously affected by the current drought are the more than 
2 million Somalis trapped in
al-Shabaab-controlled areas in south central Somalia. Since January 
2010, al-Shabaab has largely prohibited international humanitarian 
workers and organizations from operating in the areas it controls. Al-
Shabaab's continued refusal to grant humanitarian access has prevented 
the international community from responding to the drought in south 
central Somalia, which precipitated the famine we are seeing now. The 
United States is pressing all parties to immediately restore unimpeded 
humanitarian access to all parts of Somalia.
    During the last week of July, major fighting began again in 
Mogadishu between the African Union Mission in Somalia (AMISOM) and the 
Transitional Federal Government (TFG) forces against al-Shabaab and its 
affiliates. With more than 400,000 IDPs now residing in and around 
Mogadishu, this renewed fighting is an area of concern. We are 
confident that AMISOM and the TFG understand the threat this fighting 
places on the civilian population and call on all parties to do 
everything in their power to protect civilians, particularly those 
displaced due to recent famine and drought conditions. We continue to 
support AMISOM and the TFG in their efforts to bring stability to 
Mogadishu in the face of continuing threats from
al-Shabaab.
    Al-Shabaab is a U.S.-designated Foreign Terrorist Organization and 
has also been sanctioned by the United Nations for its role in 
threatening the peace, security, and stability of Somalia including 
disrupting the Djibouti Peace Process; and for obstructing humanitarian 
assistance into Somalia. As we seek to take advantage of any current 
openings to expand aid distribution, we are also working with our 
partners in the international community to counter al-Shabaab's ability 
to threaten our interests or continue to hold the Somali people 
hostage. At the same time, we are taking the necessary steps to support 
the flow of urgently needed humanitarian aid to those who need it in 
south central Somalia while working to minimize any risk of diversion 
to al-Shabaab. We have worked closely with the Department of Treasury 
to ensure that aid workers who are partnering with the U.S. Government 
to help save lives under difficult and dangerous conditions are not in 
conflict with U.S. laws and regulations. To be clear, however, the U.S. 
sanctions against al-Shabaab do not and never have prohibited the 
delivery of assistance to Somalia, including to those areas under the 
de facto control of al-Shabaab. The presence of al-Shabaab means that 
U.S. persons must adhere to U.S. legal requirements in the course of 
providing assistance in Somalia.
    In the long term, regional security in the Horn of Africa requires 
political stability in Somalia. The United States already has in place 
a long-term process to stabilize Somalia. Last year we announced the 
Dual Track approach to broaden our efforts by taking into account the 
complex nature of Somali society and politics, as well as to be more 
flexible and adaptable in our engagement. On Track One, we continue 
support for the Djibouti Peace Process, the TFG, and AMISOM as a first 
line of effort to stabilize Somalia and expel al-Shabaab from 
Mogadishu. Since 2007, the United States has supported stabilization 
efforts by obligating approximately $258 million to support AMISOM's 
training and logistical needs, as well as approximately $85 million to 
support and build the capacity of TFG forces. Recent security advances 
by AMISOM and the TFG in Mogadishu have taken back significant portions 
of the city from al-Shabaab control.
    On Track Two, we are deepening our engagement with the regional 
governments of Somaliland and Puntland, as well as with local and 
regional administrations throughout south central Somalia who are 
opposed to al-Shabaab, but who are not affiliated with the TFG. In 
FY11, the United States plans to provide approximately $21 million to 
support development efforts in support of the Dual Track policy. We are 
reviewing how best to adapt our travel policy for Somalia to execute 
our Dual Track approach most effectively without compromising on our 
obligation to protect the security of U.S. personnel when they travel 
inside Somalia. Our long-term efforts will continue to focus on 
security, governance, and humanitarian and development assistance.
    In addition to working toward political stability in Somalia, the 
U.S. Government is also focusing its efforts to help provide long-term 
food security in the eastern Horn of Africa region. We recognize that 
emergency assistance alone cannot solve the underlying long-term 
problems in the region. That is why President Obama's innovative and 
forward-looking Feed the Future initiative is so critical. Feed the 
Future is already at work in the region with local, regional, and 
multilateral partners improving agricultural production, improving 
markets, building infrastructure, bringing innovation, and addressing 
the entire value chain from seed to market.
    As I noted when I began, we are extremely concerned about the 
drought and famine in the Horn of Africa. We are working hard with our 
interagency and international partners to deliver quickly the life-
saving short-term relief critical to those suffering its effects. U.S. 
Government and U.S.-funded assistance has prevented the loss of 
millions of lives. We recognize that both the food security problem in 
the region and the political instability problem in Somalia are linked, 
and that both demand long-term solutions. Our Dual Track approach to 
Somalia provides an effective mechanism for us to grapple with the 
challenges of political stability in Somalia. Our Feed the Future 
initiative will help create food security in the eastern Horn of Africa 
region. The United States will continue to monitor and respond to the 
humanitarian crisis and work with host governments on long-term 
solutions.
    Thank you, Mr. Chairman. I welcome your questions.

    Senator Coons. Thank you very much, Ambassador.
    Ms. Lindborg.

  STATEMENT OF HON. NANCY LINDBORG, ASSISTANT ADMINISTRATOR, 
 BUREAU FOR DEMOCRACY, CONFLICT, AND HUMANITARIAN ASSISTANCE, 
U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT (USAID), WASHINGTON, 
                               DC

    Ms. Lindborg. Thank you, Chairman Coons and Ranking Member 
Isakson. I really appreciate your taking this time to hold the 
hearing and raise the level of attention. Even as we meet 
today, the situation is deteriorating, and I think we all share 
significant concern.
    As you noted, the Horn of Africa has long been plagued by 
cyclical drought, and what we are seeing now is the worst in 60 
years. What used to be 10-year drought cycles are now happening 
literally every other year, and the current drought is now 
affecting 12.4 million people in Somalia, Kenya, Ethiopia, and 
Djibouti.
    The crisis is both a humanitarian and a security one. The 
famine, as you noted, has been declared in only the most 
difficult to access areas of Somalia. We will hear more from 
Dr. Brigety about the refugees who are pouring across the 
border into the already drought-stressed areas of Kenya and 
Ethiopia.
    Internally, more than 1\1/2\ million displaced Somalis are 
crowding into the northern cities of Somalia that are ill 
equipped to handle this increase in population.
    The July 20 U.N. Declaration of Famine in the two regions 
of
 Somalia was not made lightly, and truly reflects the dire 
conditions of the people in Somalia. It is based on nutrition 
and mortality surveys, data that has been verified by the CDC. 
And on the basis of that, we estimate that in the last 90 days, 
29,000 Somali children have died. This is nearly 4 percent of 
the children in southern Somalia.
    Our fear and the fear of the international community and 
the governments in the Horn of Africa is that the famine 
conditions in those two regions of Somalia will spread to 
encompass the entire eight regions of southern Somalia. The 
next rains are September/October, and even if they're good, we 
could bear witness to another wave of mortality in the south 
due to water borne diseases.
    In Ethiopia and in Kenya, the situation is grave, but we do 
not expect it to deteriorate into famine or result in the level 
of needs as severe as we are witnessing in the south.
    Ethiopia and Kenya have large areas of arid lands, 
populated primarily by pastoralists. In partnership with local 
governments and international donors, USAID has worked 
extensively in both countries to increase the resilience and 
the food security of these communities in drought affected 
areas. We have strengthened early warning systems. We have 
supported an ongoing safety net and community protection 
programs, and have increased productivity in arid lands.
    And just in--for example, in partnership with the Ethiopian 
Government, with the World Bank and other donors, the United 
States Government has supported the Ethiopia Productive Safety 
Net Program. As a result, 7.6 million people have been removed 
from the emergency case load.
    In the drought of 2002-03, the Government of Ethiopia 
stated that 13.2 million people in Ethiopia were drought 
affected. By contrast, today only 4.8 million are stated to be 
in need.
    The needs in Ethiopia and Kenya are serious. They will 
require sustained focus and attention. But the results of our 
preparedness and development programs are paying off. We are 
seeing results.
    As you noted, Senator Coons, the FEWS NET famine early 
warning system alerted us in August that a drought was on the 
horizon. At that time, we began prepositioning food stocks, 
food aid, stockpiling food in Djibouti, Kenya, and South 
Africa. We have since, just for this fiscal year, provided $459 
million of aid in the Horn. This includes food assistance, 
treatment for malnourished children, water sanitation, hygiene 
education, and assistance in the refugee camps.
    We are now focused aggressively on working to abate the 
potential for mass starvation in southern Somalia. We learned 
in the drought of 1992 in Somalia that the leading cause of 
death for children under 5 was disease. We are focusing on 
three key areas therefore--first, the availability of food, 
including those therapeutic foods so essential for children 
under 5, access to food, and integrated health programs.
    In terms of key challenges, we identify three. First, time; 
it is not on our side. We have a small window to reach those in 
need or risk the additional deaths of several hundred thousand. 
We are looking at about a 6-to-8-week window.
    Access. Access in the worst affected areas of south Somalia 
remain the primary obstacle to relief efforts. As you noted, 
the World Food Programme and most international organizations 
suspended operations in early 2010. And since 2008, WFP has 
lost 14 staff members. Until now, al-Shabaab has restricted 
access, and they have given mixed signals on whether it will 
lift its ban.
    We, along with the international community, are working to 
explore all avenues to safely provide assistance where there is 
access. In the face of these extreme needs, we have issued new 
guidance on the provision of assistance to allow more 
flexibility to a wider range of aid to those areas in need. And 
we have clarified that aid workers who are partnering with the 
U.S. Government to help save lives are not in conflict.
    The third challenge is scale. The emergency will outstrip 
the resources currently available in the international 
community, in the traditional donor community. So, we are 
working aggressively to encourage all donors, all nations, to 
step forward with assistance.
    I will conclude by saying we cannot stop drought from 
happening, specifically in this region, but what we can do is 
strengthen communities and their ability to withstand these 
natural calamities.
    President Obama's Feed the Future initiative is focused 
precisely on addressing these root causes of hunger and 
undernutrition and working to strengthen the resilience of 
communities. It shores up the ability of these populations to 
withstand drought through commercial availability, access of 
staple foods, reducing the trade and transport barriers that 
impede the movement and sale of livestock, and harnessing 
science and technology.
    We are seeing right now how these investments in the future 
can make a critical difference.
    Thank you, Mr. Chairman. Thank you, Senator Isakson. And I 
would like this testimony to signal to the people of the Horn, 
as well as the Somali-Americans I recently met in Minnesota and 
Ohio, that the American people are very much with them in this 
time of need. Thank you.
    [The prepared statement of Ms. Lindborg follows:]

    Prepared Statement of Assistant Administrator Nancy E. Lindborg

    Chairman Coons, Ranking Member Isakson, and distinguished members 
of the committee, thank you for this opportunity to testify before you 
today on the humanitarian crisis in the Horn of Africa. Your attention 
and concern is critical, as the situation continues to deteriorate 
daily, with millions of individuals affected.
    In scale and severity, the current drought in the Horn of Africa is 
the worst in 60 years and, according to the U.N. Office of the 
Coordination for Humanitarian Affairs, it is now affecting an estimated 
12.4 million people in Somalia, Kenya, Ethiopia, and Djibouti. It is 
both a humanitarian and a security crisis, as famine has been declared 
in the difficult to access areas of Somalia and refugees are pouring 
across the borders into already drought-stressed areas of Kenya and 
Ethiopia.
    I will discuss today the current situation, our immediate response, 
the challenges we face, and our long-term plans to address the chronic 
food insecurity in the Horn of Africa.
                           current situation
    The Horn of Africa is experiencing the lowest rains in 60 years, in 
a region long plagued by cyclical drought. However, what used to be a 
10-year drought cycle is now occurring every other year and is combined 
with rising food prices and a 20-year conflict in Somalia.
    Twenty five years ago, USAID invested in the Famine Early Warning 
System, or FEWSNET, precisely because of the recurring droughts in the 
region. FEWSNET, along with the U.N. Food and Agriculture 
Organization's Food Security and Nutrition Analysis Unit (FSNAU), 
maintains a strong presence in the Horn and enables the humanitarian 
community to identify conditions based on an extensive analysis of 
historical and current rainfall, cropping patterns, livestock health, 
market prices and malnutrition rates. USAID is the largest supporter of 
these vital early warning systems, and the entire international 
humanitarian and donor community relies on their information to provide 
appropriate assistance to those who need it most and to target 
assistance that might be needed in the future.
    In Ethiopia and Kenya, the situation is grave but we do not expect 
it to deteriorate into famine. Both countries have large areas of arid 
lands populated primarily by pastoralists. Ethiopia has declared 4.8 
million in need of urgent assistance, and in Kenya, 3.7 million are at 
risk. USAID has worked extensively in both countries, in partnership 
with international donors and local governments; to increase the 
resilience and food security of communities in these drought-affected 
areas. We have focused better on early warning systems, ongoing safety-
net and community protection programs, and increased productivity in 
arid lands and pastoralist livelihoods.
    For example, in partnership with the Ethiopian Government, the 
World Bank and other donors, the United States supported the Ethiopian 
Productive Safety Net program, which has effectively removed 
approximately 7.6 million people from the emergency caseload. In the 
drought of 2002-3, the Government of Ethiopia stated that 13.2 million 
people in Ethiopia were drought-affected and in need of emergency 
assistance. By contrast, that number to date is 4.8 million. The needs 
in these countries are still serious and require sustained focus and 
attention, but the results of preparedness and development investments 
are having a positive impact.
    In Somalia, however, the situation is stark. Consecutive seasons of 
failed or poor rainfall, coupled with two decades of conflict and lack 
of governance, have resulted in rising food prices, livestock 
mortality, crop failure, denial of reliable humanitarian access by al-
Shabaab, and consequent severe malnutrition and massive population 
displacement. The U.N. estimates that a total of 3.2 million people in 
Somalia now require immediate, life-saving humanitarian assistance. Of 
those in urgent need, 2.8 million people reside in southern Somalia. On 
July 20, the U.N. declared a famine in two regions of Somalia: Lower 
Shabelle Region and areas of Bakool Region in southern Somalia. A 
famine determination is never made lightly and reflects the truly dire 
circumstances facing the people of southern Somalia. Based on nutrition 
and mortality surveys verified by the Centers for Disease Control and 
Prevention (CDC), we estimate that more than 29,000 children under 5--
nearly 4 percent of children--have died in the last 90 days in southern 
Somalia.
    Somalis are leaving the south in great numbers, either for the more 
stable areas in the north or into neighboring countries--in all cases 
adding great strain to already drought-stressed environments. More 
specifically, 1.5 million internally displaced Somalis are concentrated 
in Mogadishu and the regions of Lower Shabelle and Galgaduud, with 
increasing numbers in Puntland and Somaliland. In May, I traveled to 
Hargeysa, in the semiautonomous region of Somaliland, where I met with 
President Sulanyo, as well as U.N. and local and international 
nongovernmental organizations. They noted rising concerns about the 
numbers of internally displaced persons who are now arriving in their 
cities, ill-equipped to meet the needs of a rising population. Farmers 
and pastoralists, with no remaining assets, are swelling the outskirts 
of cities throughout northern Somalia, including many youth with no 
evident future.
    The refugees who cross into Ethiopia and Kenya describe a grueling 
trip, often on foot for 3 to 4 or more weeks. My colleague, Deputy 
Assistant Secretary Reuben Brigety, will describe in more detail the 
deeply distressing stories of families arriving in refugee camps in 
near-death shape. Tragically, we also know that in these crisis 
situations, those who leave are the ones with the strength and 
resources to do so. The weakest and most vulnerable are often left 
behind.
   current u.s. government assistance to the horn drought and famine
    FEWSNET warned us of the increased probabilities of drought in 
August 2010. Because of these early warnings, USAID began 
prepositioning additional emergency relief supplies and food aid in the 
region last fall, stockpiling food aid supplies in Djibouti, South 
Africa, and Kenya. As a result, the U.S. Government was able to help 
jump-start relief efforts and is now reaching more than 4.6 million in 
need throughout the Horn and providing approximately $459 million in 
humanitarian assistance to date (in FY 2011). U.S. assistance provides 
critically needed food aid, treatment for severely malnourished 
children, health care, clean water, proper sanitation, and hygiene 
education and supplies. The United States is providing approximately 
$217 million in Ethiopia, $156 million in Kenya, $80 million in 
Somalia, and $6 million in Djibouti. Since the drought began, for 
example, USAID assisted the Government of Ethiopia to vaccinate nearly 
300,000 livestock, critical for the survival of 25,000 households.
    Our strategy is focused on providing emergency assistance for those 
most at-risk, while also continuing to build greater food security and 
resilience in the drought-affected communities of Kenya, Ethiopia, and 
northern parts of Somalia so they can better withstand future droughts 
and shocks.
    We have been responding since last fall with prepositioning of 
supplies and increasing programs. Last spring, we created a Horn of 
Africa Drought Task Force in Nairobi, and on July 6, USAID activated a 
regional Disaster Assistance Response Team (DART) in Nairobi, Kenya, 
and Addis Ababa, Ethiopia, to monitor regional drought conditions, 
identify anticipated response needs, and coordinate response activities 
with other donors. USAID also stood up a Response Management Team in 
Washington, DC, to support the DART and coordinate U.S. Government 
humanitarian efforts. The DART continues to conduct assessments in the 
field to evaluate ongoing humanitarian needs and coordinates daily with 
other major donors to ensure a multilateral response.
    In FY 2011 to date, USAID has provided more than 360,200 metric 
tons (MT) of Title II food relief and emergency food assistance through 
the U.N. World Food Programme (WFP) and nongovernmental organizations 
for drought- and conflict-affected populations in Djibouti, Ethiopia, 
Kenya, and Somalia--supporting approximately 10.7 million people.
    Given the urgency of reaching the people in southern Somalia, we 
have a special focus on aggressively working to abate the potential for 
mass starvation. We have learned from the Somalia drought of 1992 that 
disease was a leading cause of death for children under 5, so we are 
stressing a multisector response with a focus on three key areas: 
availability of food, access to food, and integrated public health 
interventions--including therapeutic feeding focused on the children 
under 5, vaccinations, and access to clean water and sanitation.
    Based on FEWSNET data, we do not expect a significant harvest in 
the south for another 6 months. The next potential rains are in 
September or October in the south, and even if there are good rains, we 
could experience another wave of mortality due to water-borne disease 
and livestock death.
    We are working closely with other donors and U.N. and NGO partners 
to mount an effective response to save lives. We have three key 
challenges: time, access, and scale. As noted earlier, time is not on 
our side. Unfortunately, the situation is going to worsen before it 
gets better. However, we know we have a small window over the next 6 
weeks in which to provide life-saving assistance to prevent additional 
and potential significant deaths from occurring. The fear is that 
without immediate and significant assistance, famine conditions will 
spread from the two regions in southern Somalia to encompass the entire 
eight regions of the south with several hundred thousand additional 
deaths.
    Access remains difficult in the worst affected areas of southern 
Somalia. The World Food Programme and most international NGOs had 
suspended operations in the south due to deteriorating security and 
bans imposed by al-Shabaab. Since 2008, WFP has lost 14 staff members 
in attacks. However, we are in lockstep with other donors and the 
humanitarian community in our determination to test aggressively all 
options for delivering assistance in previously inaccessible areas to 
the people in southern Somalia.
    Finally, the scale of this emergency outstrips the resources 
currently offered by the international community to meet the needs. We 
are working to encourage the broader international community to step 
forward with additional assistance as we seek to address this sobering 
challenge.
                     looking ahead: feed the future
    We can't stop drought from happening, but we can strengthen 
communities and their ability to prepare for and withstand these kinds 
of natural calamities. President Obama's Feed the Future initiative 
(FTF) is focused precisely on addressing these root causes of hunger 
and under nutrition. It seeks to increase longer term resilience among 
vulnerable populations by increasing the commercial availability and 
accessibility of staple foods, reducing trade and transport barriers 
that impede the movement and sale of livestock and staple foods, 
harnessing science and technology to assist populations in increasing 
crop yields, and supporting national and regional efforts to reduce 
years of marginalization of certain populations. USAID is focusing its 
investments, both geographically and programmatically, to have the 
greatest sustainable impacts on reducing hunger and poverty. By linking 
vulnerable populations to market opportunities in more productive 
areas, our efforts are helping increase labor opportunities and 
strengthen value chains.
    In the Somali, Oromiya and Afar National regional States of 
Ethiopia for example, FTF investments are helping vulnerable 
pastoralists and ex-pastoralists and Afar to improve their incomes and 
increase their ability to survive climate and economic shocks. USAID is 
helping these pastoralists to improve the health of their animals 
through strengthening community veterinary services and accessing 
affordable vaccinations and other medicine. In addition, we are working 
to help pastoralists earn more money from their animals by linking them 
to markets where they can sell their animals for a significant profit. 
We help producers organize into marketing cooperatives and access much-
needed credit, improve their business skills and provide them access to 
market information. Stronger linkages between traders, feed lot 
operator, processors and exporters also help to expand livestock trade 
and provide better access to lucrative markets in the region.
    We are seeing with this drought the critical and positive impact of 
investing in the future. When countries have the governance structures, 
the policies and productive capacity to withstand drought and when 
communities have the resilience to withstand the inevitable shocks of 
droughts and crisis, the need for large-scale international emergency 
assistance is diminished. Even as we focus on the heart-breaking 
tragedy of Somalia, we are also committed to helping to build 
sustainable futures where communities feed themselves.
    Thank you, Mr. Chairman and members of the committee.

    Senator Coons. Thank you, Ms. Lindborg.
    Dr. Brigety.

STATEMENT OF DR. REUBEN BRIGETY, DEPUTY ASSISTANT SECRETARY OF 
     STATE, BUREAU OF POPULATION, REFUGEES, AND MIGRATION, 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Dr. Brigety. Chairman Coons, Ranking Member Isakson, good 
morning, and thank you very much for this opportunity to 
testify before you today on the humanitarian crisis in the Horn 
of Africa.
    Let me also say that we appreciate the support and 
attention that Congress has given to this crisis in the midst 
of so many other issues that you have been grappling with this 
summer.
    I will discuss today the current situation facing refugees, 
our immediate response, the challenges we face in meeting their 
needs as more famine survivors reach the borders of Kenya, 
Ethiopia, and Djibouti, and our plans to work with the world 
community to meet those challenges and save as many lives as we 
possibly can in the coming months ahead.
    I traveled to Ethiopia in Kenya in July to evaluate the 
emerging refugee crisis in the region where hundreds of 
thousands of Somalis have fled drought and famine in Somalia. 
During my trip, I visited refugee camps in each country, along 
with representatives from donor countries. I met with senior 
government officials, I talked with officials from U.N. 
agencies and nongovernmental organizations, and I also spoke 
obviously with many refugees.
    It was clear that this situation is developing into the 
worst
 humanitarian emergency the region has seen in a generation, at 
least since the great famine of 1991 and 1992.
    We now must confront a refugee emergency within a 
protracted refugee situation. Years of hard work by the host 
governments and their international partners to address just 
the basic needs within established camps quickly are being 
overshadowed by the need to add new border-crossing facilities, 
new camps, and additional emergency services.
    Both Ethiopia and Kenya are receiving record inflows of 
refugees from Somalia, and in both countries, refugees are 
arriving in appalling physical health. Every refugee family 
with whom I spoke in both Ethiopia and Kenya said that they had 
walked for days from Somalia with virtually no food and no 
water. Brief visits to the health clinics in the refugee camps 
revealed dozens of malnourished children, so emaciated and so 
weak that, to the untrained eye, they appeared close to death.
    Among new arrivals in the refugee camps in Ethiopia, we are 
seeing up to 50 percent global acute malnutrition, reflecting 
the even more grim state of affairs for children inside 
Somalia. Camps in Ethiopia and Kenya are strained far beyond 
their capacity in every way with regard to space, staff, food, 
and essential services, as they try to cope with the record 
influx of refugees which continues unabated.
    Somalis represent the largest refugee population in all of 
Africa. According to UNHCR, Somalis neighbors in the eastern 
Horn of Africa now host more than 620,000 Somalia refugees. 
Some 159,000 Somalis have sought refuge in Ethiopia, with over 
75,000 arriving just since January of this year. Kenya hosts 
more than 448,000 Somali refugees, with nearly 100,000 arriving 
since the 
beginning of this year. Even Djibouti has seen an almost 20-
percent increase in the number of refugees since the beginning 
of 2011.
    We commend the Governments of Kenya, Djibouti, and Ethiopia 
for their generous support for refugee populations in the 
region, even as they themselves are currently struggling with 
the drought that, as you say, may be the worst in some 60 
years.
    While the current crisis is taxing an already stressed 
system, I am confident that the Governments of Kenya, Ethiopia, 
Djibouti, and their international partners, to include the 
United States, have the ability to confront this crisis head 
on, and will be able to find new solutions to address the 
needs, not only within the camps, but also for those within 
Somalia.
    Let me give you just two examples of what I saw during my 
trip and how we are responding to those in need.
    First, the United States and our regional and international 
partners have helped ramp up emergency assistance. I traveled 
to the refugee camp complex in Dolo Ado on the Ethiopian/Somali 
border, accompanied by U.S. Ambassador to Ethiopia, Donald 
Booth, USAID Deputy Administrator Don Steinberg, Ethiopian 
Government officials, UNHCR's Ethiopia country representatives, 
and senior representatives from several donor embassies.
    As we wandered through the refugee camp talking with people 
who had been there for several days or who had only just 
arrived hours earlier, we heard versions of the same story over 
and over again.
    One man I met had come all the way from Mogadishu, 
traveling 9 days with his wife and six children with very 
little to eat along the way. I talked with him as he sat on the 
hospital cot with his youngest child, a 3-year-old girl whom I 
shall call Aisha. As we spoke, Aisha never stopped moaning. She 
could not get comfortable amidst the heat and the flies as her 
tiny bones threatened to pierce her paper-thin skin.
    We saw many families in the same desperate situation during 
a separate visit to Dadaab refugee camp in Kenya. In Dadaab, I 
spoke to one mother who had carried her polio stricken 7-year-
old daughter on her back for 9 days with little food and water 
as her other six children trailed behind.
    It was clear that a number of recent interventions, such as 
the provision of hot meals at the transit center, are vital 
steps needed beyond just basic camp services to assist those 
making this heartbreaking journey. I commend Antonio Guterres, 
the U.N. High Commissioner for Refugees, for finding ways to 
add these additional programs around Dolo Ado after he visited 
the area just a few days before I had.
    Still, we know that more must be done.
    The second example is how the United States has increased 
overall refugee assistance throughout the region. The United 
States has long been a partner to governments and people in the 
Horn of Africa as they host hundreds of thousands of Somalia 
refugees, providing approximately $459 million in humanitarian 
assistance just this fiscal year to those in need. This funding 
supports refugees, internally displaced persons, and other 
drought-affected populations.
    Out of this overall funding, the United States is providing
 approximately $69 million specifically to refugees through the 
State Department's Bureau of Population, Refugees, and 
Migration.
    Maintaining access to first asylum for Somalis in 
neighboring countries is critical to savings lives. The United 
States has previously supported the expansion of the Dadaab 
camps, and UNHCR is now moving refugees into the new space 
following the Government of Kenya's agreement to allow the 
opening of a new site. We are also urging Kenya to open quickly 
more reception center capacities so that incoming refugees can 
be properly screened and registered.
    We will continue to support the Horn countries' efforts to 
provide asylum to vulnerable Somalis, including through our 
support to the office UNHCR, the World Food Programme, and 
other international organizations and NGOs in the region.
    Representatives from other donor countries who accompanied 
me were also moved by the gravity of the situation, and they 
said that they would work with their own governments to support 
the efforts of aid groups. Rigorous and sustained diplomacy 
will be required, both in the region and with other donor 
capitals to ensure that the international community and host 
countries take necessary measures to save lives in the coming 
months.
    We are also committed to addressing the humanitarian needs
 inside Somalia as my colleagues, Ms. Lindborg, spoke. There is 
an immediate need to reach vulnerable populations inside 
Somalia so that they don't have to travel long distances to 
save lives.
    Let me also say that unless we find ways to provide 
assistance to people inside Somalia, we will continue to see 
refugees arrive in appalling states of health in Kenya and 
Ethiopia, and we will continue to see mortality rates in the 
refugee camps rise unabated.
    And this brings us to the security situation. Al-Shabaab 
activities have clearly made the current situation worse, as 
Ambassador Yamamoto noted. We expect the situation in Somalia 
to continue to decline, especially in southern Somalia, where 
the U.N. has declared famine in two regions to date and where 
conditions continue to worsen.
    There is not a single solution to this regional crisis. We 
are working to tackle it through a variety of means and 
mechanisms,
including addressing underlying causes as addressed by my 
colleague, Assistant Administrator Lindborg.
    Mr. Chairman, Mr. Ranking Member, thank you very much for 
your time and attention. I look forward to any questions you 
may have. Thank you.
    [The prepared statement of Dr. Brigety follows:]

 Prepared Statement of Deputy Assistant Secretary Reuben E. Brigety II

    Chairman Coons, Ranking Member Isakson, and distinguished members 
of the committee, thank you for this opportunity to testify before you 
today on the humanitarian crisis in the Horn of Africa. We appreciate 
the support and attention Congress has given to this crisis in the 
midst of so many other issues you have been grappling with this summer.
    I will discuss today the current situation facing refugees, our 
immediate response, the challenges we face in meeting their needs as 
more famine survivors reach the borders of Kenya, Ethiopia, and 
Djibouti, and our plans to work with the world community to meet those 
challenges and save as many lives as we possibly can in the coming 
months ahead.
                            refugee overview
    I traveled to Ethiopia and Kenya in July to evaluate the emerging 
refugee crisis in the region where hundreds of thousands of Somalis 
have fled drought and famine in Somalia. During my trip, I visited 
refugee camps in each country along with representatives from donor 
countries, met with senior government officials, talked with officials 
from U.N. agencies and nongovernmental organizations, and spoke with 
refugees. It was clear that this is developing into the worst 
humanitarian emergency that the region has seen in a generation, at 
least since the great famine of 1991-1992. We now must confront a 
refugee emergency within a protracted refugee situation. Years of hard 
work by the host governments and their international partners to 
address just the basic needs within established camps quickly are being 
overshadowed by the need to add new border-crossing facilities, new 
camps, and emergency services.
    Both Ethiopia and Kenya are receiving record inflows of refugees 
from Somalia, and in both countries refugees are arriving in appalling 
physical health. Every refugee family with whom I spoke in both 
Ethiopia and Kenya said that they had walked for days from Somalia with 
virtually no food and water. Brief visits to the health clinics in the 
refugee camps revealed dozens of malnourished children, so emaciated 
and weak that they appeared to the untrained eye to be close to death. 
Among new arrivals in the refugee camps in Ethiopia, we are seeing up 
to 50 percent global acute malnutrition--reflecting the even more grim 
state of affairs for children inside Somalia. Camps in Ethiopia and 
Kenya are strained far beyond capacity in every way--with regard to 
space, staff, food, and essential services--trying to cope with the 
record influx of refugees, which continues unabated.
    Somalis represent the largest refugee population in Africa. 
According to UNHCR, Somalia's neighbors in the eastern Horn of Africa 
now host more than 620,000 Somali refugees. Some 159,000 Somalis have 
sought refuge in Ethiopia; over 75,000 have arrived just since January 
2011. Kenya hosts more than 448,000 Somali refugees with nearly 100,000 
since the beginning of the year. Even Djibouti has seen an almost 20 
percent increase in the number of refugees since the beginning of the 
year. We commend the Governments of Kenya, Djibouti, and Ethiopia for 
their generous support for refugee populations in the region, even as 
they themselves are currently struggling with a drought that may be the 
worst in 60 years.
    While the current crisis is taxing an already stressed system, I am 
confident Governments of Kenya, Ethiopia, Djibouti, and their 
international partners, including the United States, have the ability 
to confront this crisis head on and will be able to find new solutions 
to address the needs not only within the camps but also for those 
within Somalia. Let me give you just two examples of what I saw during 
my trip and how we are responding to those in need.
                   the long journey of the survivors
    First, the United States and our regional and international 
partners have helped ramp up emergency assistance. I traveled to the 
refugee camp complex at Dolo Ado on the Ethiopian-Somali border 
accompanied by U.S. Ambassador to Ethiopia Donald Booth, USAID Deputy 
Administrator Don Steinberg, Ethiopian Government officials, UNHCR's 
Ethiopia Country Representative, and senior representatives from 
several embassies, including Australia, the United Kingdom, Canada, 
Sweden, and the European Union. As we wandered through the refugee 
camp, talking with people who had been there for several days or who 
had just crossed the border a few hours earlier, we heard versions of 
the same story over and over again.
    One man I met had come all the way from Mogadishu, traveling for 9 
days with his wife and six children with very little to eat along the 
way. I talked with him as he sat on the hospital cot of his youngest 
child--a three-year-old girl I'll call Aisha. As we spoke, Aisha never 
stopped moaning. She could not get comfortable amidst the heat and 
flies as her tiny bones threatened to pierce her paper-thin skin. We 
saw many families in the same desperate situation during a separate 
visit to Dadaab refugee camp in Kenya. In Dadaab, I spoke to one mother 
who had carried her polio-stricken 7-year-old daughter on her back for 
9 days with little food and water as her other six children trailed 
behind.
    It was clear that a number of recent interventions--such as the 
provision of hot meals at the transit center or the establishment of 
blanket feeding programs--are vital steps needed beyond just basic camp 
services to assist those making this heartbreaking journey. I commend 
Antonio Guterres, the U.N. High Commissioner for Refugees, for finding 
ways to add these additional programs around Dolo Ado after he himself 
visited the area and found ways to move resources and personnel into 
place more quickly. Still more is needed and we in the international 
community cannot slacken our efforts.
             current u.s. government assistance to refugees
    Second, the United States has increased overall refugee assistance 
throughout the region. The United States has long been a partner to the 
governments and people of the Horn of Africa as they host hundreds of 
thousands of Somali refugees, providing approximately $459 million in 
humanitarian assistance this fiscal year to help those in need. This 
funding supports refugees, internally displaced persons (IDPs), and 
other drought-affected populations, and helps build resiliency and food 
security beyond the immediate crisis. Out of this overall funding, the 
United States is providing approximately $69 million, specifically for 
refugee assistance in the region through the Department of State's 
Population, Refugees, and Migration Bureau.
    Maintaining access to safe asylum for Somalis in neighboring 
countries is critical to saving lives. The United States has previously 
supported the expansion of the Dadaab camps and UNHCR is now moving 
refugees into the new space following the Government of Kenya's 
agreement to allow the opening of the new site. We are also urging 
Kenya to quickly open more reception center capacity so that incoming 
refugees can be properly screened and registered. We will continue to 
support the Horn countries' efforts to provide asylum to vulnerable 
Somalis, including through our support for the Office of the U.N. High 
Commissioner for Refugees, the World Food Programme, and other 
international organizations and NGOs working in the region.
    Representatives from other donor countries who accompanied me were 
moved by the gravity of the situation and said they would work with 
their governments to support the efforts of aid groups. Rigorous and 
sustained diplomacy will be required both in the region and with other 
donor capitals to ensure that the international community and host 
countries take necessary measures to save lives in the coming months. 
We need to ensure that insecurity from Somalia does not spill over into 
the neighboring countries.
    We are also committed to addressing the humanitarian needs inside 
Somalia so that lives are saved and fewer people need to flee to the 
neighboring countries. There is an immediate need to reach vulnerable 
populations inside Somalia who may be unable to travel long distances 
to seek life-saving assistance. Ideally drought victims would not have 
to leave their homes in order to receive life-saving assistance, but in 
conflicted Somalia, that is not currently possible in all instances.
    That brings us to the security situation. Al-Shabaab's activities 
have clearly made the current situation much worse. We expect the 
situation in Somalia to continue to decline, especially in southern 
Somalia where the U.N. has declared famine in two regions to date and 
where conditions continue to worsen. The international community is 
calling on al-Shabaab to allow unimpeded assistance in these areas of 
Somalia, including allowing aid groups access to the direst areas to 
directly assist those in greatest need.
    There is not a single solution--to this regional crisis. We are 
working to tackle it through a variety of mechanisms and responses, 
including addressing the underlying causes, as noted by my colleague, 
Assistant Administrator Lindborg.
    Thank you, Mr. Chairman and members of the committee.

    Senator Coons. Thank you, Dr. Brigety.
    Ambassador Yamamoto, if I might pick up where Dr. Brigety's 
testimony left off, clearly being able to deliver humanitarian 
assistance within Somalia, particularly southern Somalia, is 
vital to preventing refugees from having to make day-long or 
week-long treks across the desert that are so difficult and so 
stressful on them and their children.
    My understanding is in the past day the administration has 
eased restrictions on humanitarian groups providing assistance 
in southern Somalia. Could you just explain in a little more 
detail the modified policy, the extent to which it will 
increase the flow of aid? And do you have confidence that there 
is enough time left for humanitarian assistance to be provided 
in southern Somalia, given the famine?
    Ambassador Yamamoto. That's really a kind of multifaceted 
answer, and I will also refer to Dr. Lindborg for a 
comprehensive answer.
    But, you know, 60 percent of those in need are in Shabaab-
held territory. And the question comes in is whether or not 
this U.S. policy or not has prevented, and the answer is, no, 
it has not. The issue is that it has been extremely difficult--
impossible--to deliver food into these Shabaab-held 
territories.
    What the United States has taken has been to ease the OFAC 
licenses on NGO groups. They are required--a heightened due 
diligence procedures to avoid the diversion. But essentially it 
is to allow NGO groups and deliverers to enter al-Shabaab-held 
areas if they can, even if it means paying--what was it--fees 
or convoy fees or what have you, as long as they have done the 
due diligence, if there is no other alternative.
    But the bottom line is, even with these measures and the 
easing of the licensings and procedures, is really, is Shabaab 
going to allow the deliveries? Right now, as an example, if you 
see the internally displaced people right now, you are having 
about 100,000 or so south of Mogadishu. You are having, at a 
rate of 1,000 a day going into those areas. You have Shabaab 
troops and shooters going into the areas and targeting refugees 
and making it more difficult. Amazon has done a preemptive 
measure to try to keep the quarters of feeding open to these 
IDPs.
    So, the question comes in, is how are we going to stabilize 
the area? How are we going to allow free flow of food into 
these areas? And I guess I would refer to Dr. Lindborg for more 
information.
    Senator Coons. Please, if you would like to expand, Ms. 
Lindborg.
    Ms. Lindborg. Yes, thanks. You know, I think time and 
access are the two critical challenges that we face. And we are 
working closely with the international community to explore a 
number of options that test the possibility of having greater 
access.
    There are air lifts bringing food into Mogadishu. We are 
hopeful that there will be an opportunity to move more 
vigorously into areas where there is a willingness by al-
Shabaab and others to let assistance in.
    I think that the new guidance that was issued just over the 
last few days creates greater assurance and greater 
flexibility, but fundamentally this is a tough area to operate. 
It is probably one of the toughest operating environments 
globally right now. And it will take very seasoned humanitarian 
workers to be able to navigate through that environment.
    Senator Coons. Ambassador, how would you assess the 
international community's response to this crisis compared to 
the United States? And what are we doing, and how successful 
are we being to encourage engagement by the African Union, the 
EU, the GCC, the Arab League, and other multilateral entities 
and groups that might be engaged?
    Ambassador Yamamoto. Let me answer in two ways. First is 
that the response by the United States has always been there. 
It is not something that we have suddenly responded because of 
the effects of the famine.
    As you know, for the last several years, the United States 
is the primary food supplier to the region. In fact, the Horn 
of Africa is probably our No. 1 region for food recipients 
around the world, and Ethiopia is our No. 1 country for the 
last several years.
    The issue comes in is--another example, too, is--just to 
kind of give you the breadth or the depth of the problems, you 
know, on a good in Ethiopia you have something like 300 kids 
under the age of 5 dying each and every day from preventable 
diseases. And under this situation, the rates are much higher.
    And so, the response has been how to get, A, the more food 
into the pipeline, ensure deliveries. More important is working 
with Ethiopia and Kenya to, A, get better access, expand 
refugee camps. And then number three is to work with the Amazon 
forces up in Mogadishu to ensure that there's more feeding 
capability to those IDPs, and also easing up procedures to make 
it easier for NGO groups to operate. And finally is really to 
confront the Shabaab and how they can, you know, either we can 
contain them or open up more corridors for feeding.
    Senator Coons. I would be interested--and, Ms. Lindborg, 
you mentioned in your testimony the important role of 
harnessing science and technology, the role that Feed the 
Future has played. I, in doing the background reading on this, 
was struck at the effectiveness of ready to use therapeutic 
foods, like plumpy nut and others, that are being deployed and 
have revolutionized our ability to revive children who have 
come to the very edge of starvation, and also the investments 
USAID has made on water drilling in Ethiopia and how it has 
allowed pastoralists to sustain their lifestyle, but still 
provided them with more reliable water supplies.
    Any brief comments you would like to add about how our 
strategic investments in advance of this particular crisis have 
changed the ground and made this different than previous 
drought cycles?
    Ms. Lindborg. Yes, thank you. You know, I think the most 
striking is what I cited in my testimony in that because of our 
work with the World Bank and other donors and the Ethiopian 
Government on the community safety net, we have enabled 7.5 
million Ethiopians to not go into a state of urgent need. And 
in addition, there has been significant work on increasing the 
ability of pastoralists to weather these kinds of serious 
droughts through improving the health of their livestock, 
improving their ability to trade.
    As we look ahead to the Feed the Future initiative, that is 
really I think at the heart of President Obama's vision for how 
to truly enable us to not have to mobilize large emergency 
responses every time there is a drought. We want to couple that 
with the kind of trade reforms and policies that can enable 
vulnerable populations to have greater protection, for there to 
be greater productive capacity, and to use science and 
technology on issues like drought resistant seeds, or better 
productive techniques or livestock approaches.
    Senator Coons. Thank you.
    Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman. Thanks to all of 
you for testifying.
    Ambassador Yamamoto, you said, and I think I got this 
right, that sanctions do not inhibit delivery of humanitarian 
aid. And I think you were referring to Somalia and al-Shabaab. 
What do our sanctions say regarding humanitarian aid?
    Ambassador Yamamoto. You mean that this is the OFAC 
licensing?
    Senator Isakson. Yes.
    Ambassador Yamamoto. When we debated the issue on 
deliveries into Shabaab-held territories, the debate was 
centered on the payment of convey fees to the Shabaabs in order 
to allow feeding into those areas.
    The second thing is, when was the Shabaab using those money 
and funding for? And so, that became a major concern is, is 
through this effort of feeding are we also contributing to 
greater instability? And so, that became a great debate.
    The problems comes in right now is that with the famine or 
the severe, acute malnutrition, is how do you liberalize and 
open up the capabilities of NGOs and explore opportunities to 
allow them procedurally to get into those areas faster, quicker 
and food deliveries?
    But the problem remains is that, even with all the 
procedural openness, is that will the Shabaabs allow them to 
enter? Now, as you know, Ethiopia and Kenya have tried to open 
corridors for feeding, or they pushed into Somalia. But even 
those are not sufficient enough given that those are still 
remain insecure areas and dangerous. And so, it becomes a big 
problem of how do you engage or how do you open corridors? How 
do you begin to feed in those areas where really 60 percent of 
those in need are in Shabaab-held territories? That becomes a 
real problem.
    Senator Isakson. So, the problem is the corruption at the 
checkpoints that the al-Shabaab would issue. They have payoff 
fees for safe passage, and they use those to help finance their 
organization. Is that what you are referring to?
    Ambassador Yamamoto. Yes, sir.
    Senator Isakson. And so, the question is, is it--are we 
telling them--are we telling NGOs that are willing to travel 
and deliver humanitarian aid that it is OK to pay those fees?
    Ambassador Yamamoto. No. We are requiring through 
procedures that they do the due diligence to find any way 
possible to be able to feed and provide food to needed areas 
without paying those fees. But if it becomes necessary, 
obviously.
    Senator Isakson. Is there any security for NGOs provided 
either U.N.-wise or by the African Union in terms of getting 
the material into Somalia?
    Ambassador Yamamoto. Well, actually I will refer to you.
    Senator Isakson. Ms. Lindborg.
    Ms. Lindborg. Well, I know you have an NGO panel following 
us, so I would--I know they will have much to say on this. But, 
you know, I think most groups operating have a very principled 
approach to not paying taxes or tolls. And many are able to 
accomplish this.
    The easing of the legal restrictions simply removes any 
concern that an accidental or incidental payment will not 
jeopardize them with any legal action. And so, it is creating a 
greater sense of comfort with the partners that that is not a 
barrier to effective assistance delivery.
    Senator Isakson. In Somalia, after that issue, it is still 
a pretty dangerous place, and al-Shabaab has used violence and 
intimidation to carry out its intent. Do these NGOs have any 
degree of protection other than their own provided protection?
    Ms. Lindborg. I believe most of them choose not to have any 
other protection other than the protection of the communities 
welcoming them in and hosting them in the provision of 
assistance.
    Ultimately, we all need the kind of access that comes from 
the communities wanting and understanding the importance of the 
international effort to help them at this critical hour.
    Senator Isakson. Well, I wanted to make a point. Chairman 
Coons and I have traveled to Africa together and seen the 
scourge that corruption causes throughout the continent. And 
this is not related to this issue, but the work that the United 
States is doing to get democratic institutions to tackle 
corruption in return for MCC compacts and other things of that 
nature, is changing Africa. This region struggles, and not 
necessarily only because of 
al-Shabaab and some of the other organizations that are there, 
but that is the single biggest inhibitor I see to U.S. 
investment in businesses, as well as U.S. foreign aid going 
there through NGOs.
    Dr. Brigety, let me ask you about the Dadaab for a second. 
I was in Kenya 2 years ago, and at that time the Kenyans were 
expressing their frustration with the pressure being applied to 
them in Dadaab with the number of refugees they had then. Your 
flyer says they're getting 1,295 new ones a day, and they have 
expanded that camp, and the camp has almost a half a million 
people in it now. Is that correct? Other than providing the 
additional land for the expansion, what pressure is being put 
on the Kenyans by this number of people to provide help, at 
what cost, and how is that cost being borne?
    Dr. Brigety. Thank you very much, Senator. You are correct 
that the Dadaab refugee camp is the largest in the world. It 
has been there since 1991.
    The issue of refugees inside Kenya frankly is a very 
sensitive one politically for them. They have been very patient 
in dealing with this refugee crisis for two decades now.
    Just to give you sort of a sense of an order of magnitude, 
earlier this year in January, Dadaab was getting about 1,200 
new arrivals a week. It is now about 1,200, 1,300 a day. The 
international community has long asked them to open an 
additional camp. The three major camps there are Ifo, Hagadera, 
and Dagahaley. There was an expansion to Ifo called Ifo Two, 
which we have long asked them to expand.
    When I was in Dadaab 3 weeks ago, I was there on the ground 
with Prime Minister Odinga, who had a public press conference 
with the international media. And at that press conference he 
gave his word that the Government of Kenya would allow the Ifo 
expansion to be opened. And UNHCR has begun to move refugees 
there, and we look forward to the continued commitment of the 
Government of Kenya to support that.
    The cost for the camp is largely borne by the international 
community. The U.N. high commissioner for refugees is 
responsible for camp management and the World Food Programme, 
which is supported by USAID. It is responsible for feeding 
those refugees.
    The Government of Kenya obviously provides some financial 
support for the guard through the provision of security forces 
around the borders, but the United States has long been the 
leader in terms of supporting UNHCR. We work with our other 
international partners to do so.
    Senator Isakson. The reason I brought it up, is I think it 
is--when we talk about tragedies like what is going on with the 
famine on the Horn, we also ought to give kudos to those 
countries who are trying to help. And the Kenyan Government and 
the Kenyan people have been supportive, as you said, for two 
decades and are bearing a tremendous amount of the burden now. 
And the cost of that security alone around Dadaab is a 
significant contribution by Kenya. So, we need to acknowledge 
and appreciate what they have done in that case.
    Dr. Brigety. Yes, sir. You are correct. And we do 
regularly.
    Senator Isakson. Thank you, Mr. Chairman.
    Senator Coons. Thank you, Senator.
    If I could just follow up, the other largest refugee camp 
that is receiving Somalis is Dolo Ado in Ethiopia. My 
understanding was there were nearly 2,000 Somali refugees 
arriving a day up until a few week ago, but that has recently 
dropped significantly. Do you have a sense of the cause of 
that, and how do you assess the Ethiopian Government's 
increased willingness or capacity to provide support, and what 
the ongoing issues are at that camp?
    Dr. Brigety. Thank you for the question, Senator. You are 
correct. When I was in Dolo about 3 weeks ago, the arrival rate 
was about 2,000 a day; it has now dropped to about 250 a day. 
We frankly do not have a good answer for why that number has 
decreased by an order of magnitude, but we are continuing to 
work with our partners to try to understand what the nature of 
that dynamic is.
    When I was first in Dolo in February this year, the two 
major camps there had about--Bocamaya and Mokadida had about 
50,000 refugees combined. That number has now doubled, as you 
say, to about 100,000.
    At the rates that we were seeing in mid-July, it is 
conceivable that rate could double again by the end of the 
year. The Government of Ethiopia frankly has been a very, very 
good partner in terms of supporting this refugee population, 
particularly since the odds out of the current drought crisis 
earlier this summer. They have responded with alacrity in terms 
of providing additional staff from their refugee agency to 
deploy there to Dolo Ado. They have allowed NGOs to operate at 
the transit center near there. We engage regularly and 
repeatedly with the Government of Ethiopia both in their 
Ministry of Foreign Affairs and also their refugee agency to 
ensure they know we are effective partners with them, and we 
are very pleased with the extent to which they have extended 
their hospitality to these people in need.
    Senator Coons. What is the medical situation in these two 
camps? It is hard for a Senator from a State the size of 
Delaware to grasp a camp of half a million people. That is the 
size of Kansas City. That would be five times larger than the 
largest city in my State. How are they managing the health 
pressures, the health concerns, and ensuring that we do not 
have, as Ms. Lindborg mentioned, with the onset of September 
rains, a follow-on humanitarian crisis from a rapid spread of 
disease?
    Dr. Brigety. Well, Senator, that is a very good question. 
To be frank, in Dadaab, which is not yet at 500,000, but 
certainly could be by the end of the year at current rates, the 
health pressures are enormous. Dadaab refugee camp complex, 
just the camp, is now the fourth-largest population center in 
Kenya beyond Mombassa, beyond Nairobi and others.
    Now having said that, there are a number of partners which 
help provide health services inside the camps. Doctors Without 
Borders is one of the more important. But frankly, with the new 
refugees that are arriving, there are about 44,000 refugees 
that are simply on the outskirts of Ifo Two because they were 
not allowed to settle in the Ifo camp expansion, and the other 
three camps were full.
    So, those that are settling on the outskirts where there 
were no services to speak of, there were no significant health 
services or others, were clearly suffering additional rates of 
all sorts of basic preventable diseases, to include, frankly, 
respiratory diseases, because these are very hot, dusty 
conditions. You are out without shelter, and it is very easy to 
develop those sort of problems.
    So, we are hoping that the addition of the opening of this 
Ifo camp expansion will give people shelter, will give them 
access to establish health clinics and other facilities, which, 
frankly, are already built, but simply have needed the 
permission of the Government of Ethiopia to support. And we 
will continue to support both UNHCR and these NGOs to providing 
these essential medical services, especially to treat these 
horrible rates of malnutrition amongst children under 5 years 
old that we are seeing.
    Senator Coons. A question for Ms. Lindborg, if I might. We 
were talking about science and technology earlier. These two 
nations, Ethiopia and Kenya, are bearing an enormous burden in 
terms of the refugee demand. Much of Kenya's power is delivered 
by hydroelectric power, which, due to the record drought, has 
dropped by more than half.
    What is USAID doing to help deploy alternative power, 
whether solar or geothermal or other sources of power, that 
might help provide electricity, either in Ethiopia or Kenya, to 
these camps, or that might help reduce the strain on the rest 
of these host nations in terms of their electricity grid? And 
is there anything we are doing to sort of streamline or 
expedite the process of deploying alternative sources of power 
that are not so reliant on water?
    Ms. Lindborg. Senator, I would like to get back to you with 
the specifics on that answer. I know that there are a number of 
conversations with both Kenya and Ethiopia about ways in which 
we can work closely with them to mitigate the impact of future 
drought. And so, there are conversations underway, and we would 
be delighted to get back to you with details.
    Senator Coons. Thank you.
    Let me ask just a final question, any member of the panel 
wants to speak to. What are we doing to avoid the significant 
security challenges facing Somalia spilling over into Kenya and 
Ethiopia? Both of these nations have supported and sustained 
very large refugee populations from Somalia for a long time, 
and would have understandable concerns about the possibility of 
it destabilizing
either of their nations.
    And then, last, is the investment that is being made 
sufficient from the United States, from the international 
community? And what additional resources might be needed, and 
how might we be more effective in engaging the NGO community 
and the international community on top of the commitments 
already made by the United States?
    Ambassador.
    Ambassador Yamamoto. Answer quickly. You know, the Somalia 
and that whole region is just so complex. I mean, for example, 
if you think about it, one out of every six Somali is an 
Ethiopian living in the Ogaden area. And then the refugee 
flows, and, of course, the IDPs within Somalia.
    The issue comes in is on security and stability. For 
Ethiopia and Kenya, Somalia is a strategic interest because of 
security concerns. During the time when I was there, for 
instance, in 1 year's time we had 12 terrorist bombings in 1 
year, and from groups emanating out of Somalia into Ethiopia. 
So, if it is a concern for the Ethiopians, just as it is a 
concern for Kenya, then it is a concern for us in the regional 
states.
    And so, how do you ease security concerns? And I think the 
dual track approach is one approach that we have worked not 
just with the regional states, but also with the transitional 
government, to stabilize that region. And that really is one 
area that to look at the security by the Somalis themselves 
addressing the Somali problems. And then, the Amazon troops 
from Uganda and Burundi have done a great job in taking back a 
lot of parts of Mogadishu.
    But, again, the bottom-line problem is that security is 
going to be a long-term problem. Do we have enough finances? 
No. But it is an issue that is going to be in partnership with 
the regional states and also the Somalis themselves.
    Dr. Brigety. Senator, if I may add one concrete example on 
the security aspect. One of the principal crossing points from 
Somalia into Kenya is a place called Lavoie, where the United 
States has long encouraged the Government of Kenya to open a 
screening center.
    As you know, the Government of Kenya has officially closed 
their border from Kenya and Ethiopia--Kenya to Somalia has for 
some years. We have encouraged the Government of Kenya to 
reopen the screening center at Lavoie, and we have committed 
some funds--some considerable funds to help them pay for that 
opening. And that will be a means for them to help them know 
who is actually coming into their country.
    In addition, it would be a means to actually providing 
assistance to refugees at the first point of crossing before 
they have to make the additional 80 kilometer trek to Dadaab. 
So, we hope the Government of Kenya will continue to consider 
this favorably and will open the screening center in short 
order.
    Ms. Lindborg. Well, I will just wrap that up by saying, we 
are very focused on ensuring that the host communities around 
the vicinities of the camps also receive assistance. There are 
large drought affected areas, as we have discussed, in both 
Ethiopia and Kenya, and it is important that we work to meet 
those very grave needs as well.
    On the awareness issue, it is critically important, I 
think, that we mobilize the resources of very generous private 
citizens as well as donors, including nontraditional donors. 
And there is a significant effort underway to do exactly that.
    Senator Coons. Great. Thank you very much.
    Senator.
    Senator Isakson. Thank you, Mr. Chairman. Just one 
question, and I guess, Ambassador, this might be directed to 
you, but, Ms. Lindborg, you might have something on it too.
    In our briefing memo from the committee, there is a 
reference to ethnic Somalis living in Ethiopia, and access 
given to NGOs to be able to provide with them food and 
humanitarian assistance, the inference being it was somewhat 
restricted. What is the case with ethnic Somalis in Ethiopia, 
and is there a restriction in getting food and aid to those 
Somalis?
    Ambassador Yamamoto. I think during the time that I was the 
Ambassador there, I spent most of my time traveling into the 
Ogaden/Somalia area to ensure that the U.S. food assistance was 
getting to the right people. And one of our problems--I will 
give you an example.
    Right now, during the last year that I was there, we had 
something like $600 million or 800,000 metric tons of food to 
deliver to the people, mostly into the Ogaden area. And we were 
able to verify through WFP and other NGO groups about a 70-
percent accuracy rate of getting the food to distribution 
points.
    The problem was getting the distribution points to the 
beneficiaries, and we were only able to confirm about 20 
percent. The reason is because of not only insecurity, but also 
the problems of delivery of food into areas of insecurity and 
conflict.
    So, we have been working very closely with the Ethiopians 
to open up access and also allow our NGO groups to go into 
areas to ensure that the food was getting to the right, 
appropriate people. And so, those are some of the, you know, 
essential problems.
    Senator Isakson. But there is still some difficulty of 
getting it there.
    Ambassador Yamamoto. Yes. Yes, sir, it is.
    Senator Isakson. Thank you very much.
    Senator Coons. We would like to thank all members of this 
panel, and thank you for your testimony, thank you for your 
service, and thank you for your work on this very important 
issue. We appreciate your testimony today.
    We now would like to turn to our second panel. We will take 
a moment here while they join us.
    We would like to welcome Mr. Konyndyk, Dr. Pham, and Mr. 
Schaap. And I encourage all three of you to correct my 
pronunciation of your name. We are grateful for your taking 
time out of your important work to join us here today and to 
add your testimony to the record, and to the attention that is 
being paid by the Senate and the international community to 
this concerning challenge in the Horn of Africa.
    Mr. Konyndyk, I would invite you to give an opening 
statement. And, again, I would encourage each of you to try and 
contain your comments to about five minutes, and we will submit 
for the record any additional statement that you might have.
    Please, sir.

STATEMENT OF JEREMY KONYNDYK, DIRECTOR OF POLICY AND ADVOCACY, 
                  MERCY CORPS, WASHINGTON, DC

    Mr. Konyndyk. Thank you, Chairman Coons, thank you, Senator 
Isakson, for the opportunity to testify before you today. It is 
an incredibly important issue, and we really appreciate the 
focus that you and the subcommittee are dedicating to this. It 
is very timely and very urgent.
    My name is Jeremy Konyndyk. I am director of policy and 
advocacy with Mercy Corps. I am here today representing a 
relief and development organization that works in over 40 
countries, but particularly for today's purposes, in three of 
the most affected countries in the region, Kenya, Ethiopia, and 
Somalia, where we are currently providing urgently needed 
drought relief throughout that region.
    I think that everyone has been shocked by some of the 
photos that have been coming out of the region, but 
particularly out of Dadaab and Mogadishu. In recent days, there 
was a very striking and shocking photo in yesterday's New York 
Times, of an emaciated child. As horrific as some of these 
images are, I think it is important that we also recognize that 
for every image of a child who, however unfortunate, has at 
least made it to a treatment center in Mogadishu or Dadaab, 
there are many, many more children, and adults as well, who 
have not made it that far. And that is a growing tragedy.
    It is also critical to remember that even as much of the 
attention so far has focused on Somalia, the situation in 
Kenya, Ethiopia, and Djibouti is desperate as well. Our teams 
are doing assessments right now throughout Kenya and Ethiopia 
and initiating programs, and they are finding vast swathes of 
Ethiopia and Kenya that are in a state of extreme humanitarian 
emergency. Our teams are seeing landscapes full of dead and 
dying livestock, which normally would form the basis of the 
ability of people living there to feed themselves and support 
their families. They are seeing villages completely emptied by 
the drought because people simply cannot get water, and they 
have had to go elsewhere. They are seeing families and meeting 
families who are struggling to eat even one meal a day. It is a 
truly desperate situation.
    The superlatives that are now being used to describe the 
crisis in the Horn are not hyperbole. This does threaten to 
become one of the worst, perhaps the worst, humanitarian crisis 
that we have seen in a generation.
    The good news, if there is any, is that the aid community 
has a pretty good understanding of how to fight a crisis like 
this. We have learned a great deal since the famines of the 
1980s and 1990s about how to respond effectively to hunger 
crises, and I have described this in much more detail in my 
written remarks that I have submitted for the record.
    The big question at this point is whether aid groups will 
actually have the opportunity to apply that understanding that 
we have developed. Our entire sector is facing a massive 
shortfall in funding for the response. The United States in 
particular has been very generous so far. The rest of the world 
has also, with some variance, put up a good amount of money. 
But it still falls far short of what we saw even a few years 
ago when a drought hit the region in 2008.
    There does not seem to be yet a global recognition of how 
severe this crisis is. We are seeing just a fraction of the 
engagement and the level of resources that we saw after the 
Haiti earthquake, for example, despite the fact that the number 
of people at risk across the Horn now exceeds the total 
population of Haiti, much less the population that was affected 
by the earthquake there.
    The U.S. Government is working very, very hard to respond 
and to mobilize resources, and we are deeply appreciative of 
that. The teams that are working this issue at USAID and in the 
State Department's Refugee Bureau really are the best in the 
business. And we deeply appreciate their commitment, their 
expertise, and their professionalism.
    But they need resources in order to combat this crisis. So 
far this year, the U.S. contribution, while extremely generous 
and we recognize it as such, remains under half of what the 
Bush administration contributed in 2008 to the last major 
drought in the region. And we are very concerned as we look at 
the upcoming fiscal year budget debate that there are proposals 
on the other side of the Hill to slash the very accounts that 
are providing the assistance that the U.S. Government is using 
for the response to this crisis, specifically the International 
Disaster Assistance Account, Migration and Refugee Assistance 
Account, and Food for Peace. Particularly Food for Peace should 
be highlighted here because that is our food aid account, and 
that has been--there is a proposed cut of 30 percent of that 
budget over fiscal year 2011 levels. That would be a 50-percent 
cut over what we had in 2008 during the last major crisis. So, 
that is a real concern.
    The other challenge to the USG response has been the legal 
restrictions, which were discussed a bit on the earlier panel. 
It does now appear that the U.S. Government has waived or is 
moving to waive these. That is a very positive step. We 
recognize it, and we commend the administration for taking it.
    We do, nonetheless, have some remaining concerns about how 
this will be implemented. I would be happy to address those in 
more detail during questioning. But even as we hopefully move 
past this impasse, it is important to recognize that the fact 
that the administration issued this license only several weeks 
after a famine was declared and several months after we knew 
that something very, very bad was coming, represents a real 
systemic problem.
    I do not think it makes sense to point at any particular 
part of the administration as bearing responsibility for this. 
I think that they were struggling to hash these things out the 
best that they could. But there is a systemic issue here that I 
think bears further exploration in terms of the interaction 
between some of our legal restrictions and our humanitarian 
priorities.
    Very quickly to the question of whether we can get into the 
south and how that is going to work, I would say we do not know 
yet. We are going to--the waiving of the legal restrictions 
takes an obstacle out of the way. But there are a lot of 
questions about what can be achieved in the south, what kind of 
access we are going to see. I think Dr. Pham can talk a little 
bit more about the regional politics there.
    I think there are reason for optimism in terms of UNICEF 
and the Red Cross' success so far in getting some aid shipments 
in without interference. That gives us hope, so we have, I 
think, a posture of hope and cautious optimism, but not naivete 
about that at this point. Thank you.
    [The prepared statement of Mr. Konyndyk follows:]

                 Prepared Statement of Jeremy Konyndyk

    Chairman Coons, Ranking Member Isakson, thank you for inviting me 
to testify before the subcommittee today on the critically important 
issue of drought and famine in the Horn of Africa. I am here today in 
my capacity as Director of Policy and Advocacy for Mercy Corps, a 
global relief and development organization that responds to disasters 
and supports community development in more than 40 countries around the 
world. Mercy Corps has worked in the Horn for many years, and we 
currently manage relief and development programs in the three countries 
most affected by the drought: Kenya, Ethiopia, and Somalia. In these 
countries we have hundreds of staff providing assistance to 900,000 
drought victims. We are working in many of the areas most affected by 
the drought: North and Central Somalia, Eastern Ethiopia, and 
Northeastern Kenya. In these regions we are pursuing a range of 
drought-focused interventions, including providing access to water; 
supporting livelihoods so that people can afford to feed themselves and 
protect their livestock; aiding communities to better manage the scarce 
water resources that they have; and providing supplemental nutrition to 
at-risk children and mothers. We are undertaking these programs with 
the generous support of public and private donors, including the 
important contributions of the U.S. Agency for International 
Development.
    With 12.4 million people across the Horn in already in a state of 
humanitarian crisis--a figure that has increased by $3 million in just 
the past month--this emergency threatens to become the worst 
humanitarian catastrophe of the past several decades. While most 
attention has focused on Somalia, this is truly a regional emergency: 
people in Kenya, Ethiopia, and Djibouti all face major shortfalls in 
access to food and water as well. The situation within southern Somalia 
is catastrophic, with death rates in the worst-affected regions, 
particularly among children, up to triple the threshold for declaring a 
famine and levels of malnutrition that are also well beyond the famine 
threshold.\1\ The situation in the rest of the region is less 
catastrophic, but still extremely dire. Across Kenya, Ethiopia, and 
central Somalia, Mercy Corps teams are seeing people's livelihoods 
collapse in real time, pushing the affected populations closer and 
closer to calamity. The situation, while already desperate, promises to 
worsen in coming months as remaining water and food stocks are further 
depleted. The international response, though it has accelerated in 
recent weeks, remains inadequate. In the hardest-hit region, southern 
Somalia, security obstacles continue to impede the delivery of 
assistance and international legal restrictions have further compounded 
the challenges of operating there. Without swift action on all fronts, 
the drought will have devastating human and regional impacts that will 
be impossible to roll back.
---------------------------------------------------------------------------
    \1\ FEWSNET/FSNAU: Evidence for a Famine Declaration (July 19, 
2011).
---------------------------------------------------------------------------
                     how is this crisis different?
    While drought is common in the Horn of Africa, the current 
situation is far graver than the normal cycles of drought that 
occasionally hit the region. Several factors contribute to this. First 
is the rainfall over the past year, which in most areas is among the 
lowest ever recorded. The region has two main rainy seasons per year, 
one in the fall and one in the late spring to early summer. Over the 
past year, both largely failed, leaving the driest conditions that most 
parts of the Horn have seen in 60 years. Seven districts across swaths 
of northeastern Kenya and southern Ethiopia have recorded the driest 
season since 1950.\2\ The broad area across which the rains failed is 
also unique: a typical drought in the region would be less uniform, 
enabling people to temporarily relocate to other areas to find water. 
This time, the broad coverage of the drought has meant that people's 
normal ``backup'' locations are themselves in a state of drought. 
Finally, this drought comes on the heels of another serious regional 
drought in 2008 which, though less severe than the current situation, 
left elevated vulnerability across the region.
---------------------------------------------------------------------------
    \2\ USAID FEWS-NET: East Africa: Past year one of the driest on 
record in the eastern Horn (June 14, 2011).
---------------------------------------------------------------------------
    The result has been a progressive erosion of the capacity of people 
in the region to cope with economic and climatic shocks. Most rural and 
nomadic populations in the Horn depend on livestock herding or small-
scale agriculture to support themselves. Both forms of livelihood are 
heavily dependent on water and vulnerable to drought. In a milder 
drought, people would rely on a variety of ``coping mechanisms'' to see 
themselves through: shifting herds to different areas in search of 
alternate water sources; selling off land holdings or parts of their 
herds to generate extra income; substituting for less expensive foods; 
reducing meals; and cutting back on household expenses.
    The severity of the current drought, coming on the heels of the 
2008 drought, has exhausted these coping mechanisms and left people 
with no income and few options. The failure of the rains across the 
region has meant that there are few areas where livestock can be 
shifted to find alternate water sources. Those that exist are quickly 
depleted by the increased pressure. Selling livestock at market 
generates little to no income because the condition of most livestock 
is so poor that they can fetch little money. Livestock are a form of 
both income and savings for people in the region; as huge numbers of 
livestock have died off they have wiped out the savings and income 
potential of innumerable families. The poor rains have led to 
widespread crop failures across the region, greatly reducing the local 
supply of food both at a household level and in regional markets. The 
prices of locally produced staples accordingly reached record highs in 
June in most markets throughout the eastern Horn.\3\ In some parts of 
Somalia, prices of staple cereals like white maize have increased by as 
much as 350 percent above last year.\4\ This massive inflation has 
quickly wiped out what scant savings people may have. These factors, 
taken together, can quickly lead to a complete collapse in peoples' 
ability to feed themselves. With their livestock assets depleted or 
deceased, no yield from their own agriculture, their savings spent, 
their land sold, and food in the market priced beyond reach, people 
find themselves without options. Aid or migration become their only 
possibilities for survival.
---------------------------------------------------------------------------
    \3\ USAID FEWS-NET: East Africa Food Security Outlook Update (July 
2011).
    \4\ FSNAU, FEWS-NET: Somalia Dekadal Food Security and Nutrition 
Monitoring (July 25, 2011).
---------------------------------------------------------------------------
    In southern Somalia, as we are now vividly seeing, this process has 
fully run its course. The result is some of the most devastating human 
suffering that aid professionals have ever seen. The desperation and 
destitution of those who have fled to Kenya, central Somalia, and 
Ethiopia has been well-documented: ``roads of death'' on which mothers 
are forced to leave behind the children who die en route; cases of 
advanced malnutrition so severe that those lucky enough to obtain 
treatment still have only a 40-percent chance of survival \5\; a 
torrent of refugees and internally displaced persons so large that 
camps and reception centers have been quickly overwhelmed. As 
disturbing as the refugee situation is, there are many more within 
Somalia who are too poor or too weak to even make the journey out. The 
slowdown in refugee arrival numbers in Ethiopia and Kenya over the past 
week may indicate, ominously, that the bulk of those who were capable 
of leaving have now done so. The numbers from FEWSNET suggest that 
those who remain in the south are now dying in astronomically large 
numbers. Child mortality in every district of southern Somalia now 
surpasses famine levels. In the worst-hit areas, children under 5 are 
dying at a rate five times the famine threshold.\6\ At this rate more 
than a tenth of the under-5 population in these areas is being wiped 
out every 2 months. Tens of thousands of people are estimated to have 
already died, a number that could reach into the hundreds of thousands 
if the situation continues to deteriorate as expected.
---------------------------------------------------------------------------
    \5\ Voice of America: African Refugee Children at High Risk for 
Kalaazar Malaria Viral Infections (July 27, 2011).
    \6\ FEWSNET/FSNAU: Evidence for a Famine Declaration (July 19, 
2011).
---------------------------------------------------------------------------
    In Kenya, central Somalia, and Ethiopia, the wider availability of 
aid and the existence of government safety net programs have slowed the 
process of livelihood collapse. But existing aid flows are not keeping 
up with the growing challenges, and safety net programs are not built 
to handle such massive levels of need. UNICEF estimates that over a 
quarter of the more than 2 million acutely malnourished children across 
the drought-affected Horn are at risk of death.\7\ The humanitarian 
needs in Kenya and Ethiopia are important to address in their own 
right, but they have added significance given the growing refugee 
populations in both countries. It is well-established that provision of 
aid to refugees can provoke resentment and backlash from host 
communities, ultimately endangering the refugees, if the needs of those 
host communities are not also met.
---------------------------------------------------------------------------
    \7\ UNICEF ESARO: Horn of Africa Crisis: Situation Report #2 (July 
28, 2011).
---------------------------------------------------------------------------
    Mercy Corps teams in Ethiopia and Kenya report mounting needs that 
are approaching critical levels in many areas. In Kenya, while most 
international attention has focused on the Dadaab refugee camp, the 
Kenyan population in the northeast of the country is entering a 
critical phase. The current dry spell is expected to last through at 
least October and food insecurity will get worse over the next few 
months.\8\ Livestock are dying in large numbers due to lack of water, 
and this crop cycle will be a near-total failure in many parts of the 
country due to the drought.\9\ The situation is so desperate that our 
assessments have found instances of herders braving security challenges 
to take their remaining livestock into riverine parts of Somalia to 
attempt to water them there. This has led to a phenomenon of ``drought 
widows''--women whose husbands have left to seek water for their 
livestock, leaving their families behind indefinitely. Malnutrition 
rates have been rising, and an estimated 40 percent of farming 
households in some districts are now skipping meals.\10\ Our teams 
expect to begin seeing elevated mortality rates in the very near future 
if swift action is not taken. In Ethiopia we are seeing a parallel 
situation. Recently completed assessments by Mercy Corps in eastern 
Ethiopia revealed that the drought is already having a massive impact 
on the population. In some areas that we visited, entire villages were 
empty--their inhabitants forced to move as the drought devastated their 
ability to support and feed themselves. Dead cattle litter the 
landscape, and along one 40-kilometer stretch of road we visited not a 
single bit of foliage was visible. Many families have been reduced to 
eating one meal per day. Ethiopian colleagues who have been living and 
working in the region for decades have told us that they have never 
before seen anything like this.
---------------------------------------------------------------------------
    \8\ UNOCHA: Humanitarian Requirements for the Horn of Africa 
Drought (July 28, 2011).
    \9\ USAID FEWS-NET: Kenya Enhanced Food Security Monitoring (July 
22, 2011).
    \10\ USAID, WFP, FEWS-NET Special Report: Kenya Food Security (June 
2011).
---------------------------------------------------------------------------
                        scaling up the response
    The international community's response to the drought has been 
substantial, but nowhere near adequate. The United Nations estimates 
that nearly $2.5 billion will be required to meet the region's needs 
this year.\11\ International contributions for humanitarian response, 
currently around $1.3 billion, are well below this target, and indeed 
are running well behind the levels contributed just 3 years ago, when a 
lesser drought gripped the region. Compared to other major disaster 
such as the Haiti earthquake or the Indian Ocean Tsunami, the drought 
crisis in the Horn is receiving a fraction of the attention and support 
that was committed to those emergencies. This reflects the paradox that 
aid agencies often face with slow-onset disasters: compared to more-
telegenic natural disasters, in which most of the death and injury 
occur instantaneously, in slow onset disasters we can potentially save 
far, far more of the threatened lives. Yet we typically have a much 
harder time mobilizing the resources required to do so. We are working 
hard to convey to the public in the United States and other donor 
states that their support is badly needed. However, private 
contributions for this emergency are many times lower than the generous 
levels contributed after other major disasters.
---------------------------------------------------------------------------
    \11\ UNOCHA: Humanitarian Requirements for the Horn of Africa 
Drought (July 28, 2011).
---------------------------------------------------------------------------
    On the U.S. side, the work of the government's emergency responders 
in USAID's Office of Foreign Disaster Assistance (OFDA) and Office of 
Food for Peace (FFP), as well as the State Department's Bureau of 
Population, Refugees, and Migration (PRM) has been exemplary. These 
offices possess a high level of expertise and professionalism, and they 
have focused on this crisis with great seriousness and energy. Their 
response is to be commended. But they will need ample resources well 
into the next fiscal year if they are to sustain an aggressive response 
to this emergency.
    U.S. contributions to the Horn of Africa are down significantly 
relative to 2008. The Bush administration's humanitarian contributions 
that year topped $1 billion regionwide, while this year the United 
States has contributed less than half that amount.\12\ To put this in 
perspective, the U.S. contribution toward the drought this year amounts 
to roughly one-sixth of the amount that Congress appropriated for the 
Haiti response in the 2010 supplemental; this despite the fact that the 
population at risk in the Horn is greater than the entire population of 
Haiti. U.S. support to this drought also lags far behind U.S. 
contributions to other major crises, as the chart below demonstrates.
---------------------------------------------------------------------------
    \12\ UNOCHA Financial Tracking System: Somalia Emergencies for 
2008--Total Humanitarian Funding per Donor; UNOCHA Financial Tracking 
System: Somalia Emergencies for 2011--Total Humanitarian Funding per 
Donor.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Sources: GAO: USAID Tsunami Signature Reconstruction Efforts in 
Indonesia and Sri Lanka Exceed Initial Cost and Schedule Estimates, 
Face Further Risk (February 2007); GAO: Haiti Reconstruction--U.S. 
Efforts Have Begun. Expanded Oversight Still to be Implemented (May 
2011); USAID Fact. Sheet #10: Horn of Africa Complex Emergency (October 
---------------------------------------------------------------------------
31, 2008); USAID Fact Sheet #4: Horn of Africa Drought (July 28, 2011).

    In Somalia specifically, U.S. support dropped off drastically from 
2008 to 2010, falling by 88 percent. While recent contributions have 
started to reverse this trend, the United States contribution to 
humanitarian response in Somalia still stands at only 15 percent of the 
international total, compared against a U.S. share of 40 percent to 50 
percent in the rest of the region. The United States is the largest 
global donor to humanitarian relief, and other donors often follow our 
lead. If the United States steps up its assistance to the region, 
particularly to Somalia, this could have a powerful multiplier effect 
by influencing the behavior of other donors.
                       challenges to the response
    There are several important reasons why the impact of the drought 
is proving so much more severe in southern Somalia than elsewhere in 
the region. The first is the long history of insecurity in the south, 
which has impeded aid actors and prevented development investments. 
Even before the southern militias imposed restrictions on aid access, 
the history of insecurity in the area prevented the sort of sustained 
food security and development programming that has been common in Kenya 
and Ethiopia. These programs build resiliency, improve natural resource 
management, and help people to mitigate the challenges posed by 
cyclical droughts. Southern Somalia has not benefited from this kind of 
aid, and has been left less resilient to drought than its neighbors.
    The next factor, as has been widely reported, is the restrictions 
on aid access by southern militias, and accompanying security risks to 
aid groups. The challenges to aid groups in the south have been well 
documented, including in the recent report by the U.N.'s Monitoring 
Group for Somalia.\13\ The report describes how aid groups were able to 
operate relatively freely in the south until 2010, when the operating 
environment deteriorated significantly as the militias began to impose 
unacceptable conditions on aid groups. Those conditions, which were 
inconsistent with core humanitarian principles, contributed to 
decisions by many aid groups to scale back their work. By the time that 
Mercy Corps and other aid groups were formally expelled from the south 
in September 2010, we had few operations left there in any case because 
of the deteriorating operating environment. It is important to note 
here that we and other groups have continued to operate in the northern 
and central regions of the country.
---------------------------------------------------------------------------
    \13\ UN: Monitoring Group Report on Somalia and Eritrea (July 18, 
2011).
---------------------------------------------------------------------------
    The final obstacle has been U.S. legal restrictions on aid funding 
to Somalia, which predate the expulsion of aid groups by the militias. 
Reviewing the background of these restrictions is important not because 
I believe them to have been the principal obstacle to aiding southern 
Somalia--they were not. But these restrictions have been the only such 
obstacle that the U.S. Government could unilaterally take out of the 
way. We are encouraged by the recent indications from the 
administration that these restrictions have now been modified to allow 
greater support to relief efforts in the south. We have some remaining 
concerns about how the new arrangement will be implemented, 
particularly the fact that it only applies to programs that are wholly 
or partly funded by the U.S. Government. This provides no protection to 
interventions implemented by U.S. organization with funding from 
private foundations or European donors, for example. We hope to address 
those issues swiftly, but nonetheless the administration should be 
commended for its willingness to alter the overall restrictions in 
light of the ongoing emergency. With this issue hopefully moving in a 
positive direction, I do not wish to dwell overly long on the past. But 
it is important, even as we look forward, to take stock of what we have 
until now been unable to do, and draw lessons from that.
    The challenges that have arisen from the legal restrictions on aid 
to Somalia over the past several years are fundamentally systemic. 
Despite the best efforts of the professionals at USAID, the 
restrictions have several times caused serious delays in the efforts of 
USAID and U.S. relief groups, to provide aid to Somalia. USAID, for its 
part, has faced a thicket of legal and political obstacles but has 
consistently done its utmost to deal with those in a way that enables 
responsible aid to continue. Throughout our deliberations over the past 
several years, USAID's professionals have been collaborative and 
constructive. The blame for the delays and obstacles ultimately lies 
with the nature of the restrictions themselves. They are overly broad, 
allowing automatic humanitarian exemptions only for medical supplies 
and religious materials. Obtaining humanitarian exemptions for anything 
outside of those two categories typically requires a license that is 
only approved after a cumbersome and lengthy interagency process. This 
is a system that cries out for serious review, as I believe the last 2 
years have demonstrated.
    The restrictions first became an obstacle in Somalia in April 2009, 
when USAID raised concerns that some U.S. resources might be diverted 
in violation of U.S. Government prohibitions on material support to 
groups designated by the United States as terrorists. It was reported 
at the time that USAID was seeking an OFAC license for its work in 
Somalia, but that the Treasury Department was reluctant to grant this. 
Over the summer of 2009, USAID stopped processing new humanitarian 
response grants to U.N. agencies and NGOs while deliberations over a 
path forward dragged on.\14\ In the midst of a serious humanitarian 
crisis in much of the country, numerous U.S.-funded humanitarian 
response programs were suspended as grant agreements expired and could 
not be renewed. An agreement was finally struck in late October of that 
year--nearly 7 months after the issue first arose--to allow funding to 
move forward in FY2010.\15\
---------------------------------------------------------------------------
    \14\ New York Times: U.S. Delays Somalia Aid, Fearing it is Feeding 
Terrorists (October 1, 2009).
    \15\ IRIN: U.S. Government to Set New Aid Terms (October 6, 2009).
---------------------------------------------------------------------------
    However, when the FY 2010 grants began to expire in early FY 2011, 
USAID again suspended grant processing. By this point, most U.N. and 
NGO partners were no longer operating in southern Somalia, and the 
grant requests that were held up were instead for northern and central 
regions of Somalia, which are not under the control of U.S.-designated 
militant groups. By the time the FY 2010 grants began expiring, the 
fall 2010 rainy season in Somalia had failed and it was clear that a 
dire humanitarian situation would arise in the coming months. Several 
months passed as the administration sought a way out of the impasse. In 
late spring, U.N. and NGO partners entered into negotiations with USAID 
over whether to resume funding. An agreement to allow USAID to resume 
humanitarian funding to northern and central Somalia was finally struck 
in May of this year--nearly 8 months into FY 2011.
    The 8 months that were lost were a period in which the humanitarian 
community was well aware of the prospect of severe drought and famine. 
This was the very period when the U.S. Government's U.N. and NGO 
partners could have been working full-tilt to prepare for the coming 
calamity. While the south was not accessible to us at that point, a 
great deal could have been done to preposition, prepare communities in 
accessible regions of the country, and assist the already-large flows 
of internally displaced people. Yet the bureaucratic tie-up over U.S. 
legal restrictions left U.N. and NGO partners unable to obtain USG 
resources that would have enabled a much more robust response in the 
northern and central regions. This has been particularly damaging in 
central Somalia, which has been afflicted with drought every bit as 
severe as the southern areas, and also hosts tens of thousands of 
displaced southerners in desperate conditions.
                             the road ahead
    The situation across the Horn of Africa is likely to worsen in the 
coming months as water sources dwindle and people's stocks of food and 
money are depleted. In southern Somalia--assuming that the 
administration's moves to relax the legal restrictions will enable aid 
groups to resume programs there--many agencies will be eager to move 
ahead with relief efforts. The NGO community is strongly committed to 
ensuring that aid is not diverted away from those who need it most. I 
would emphasize that we do not know exactly what to expect in terms of 
access and security, and we do not discount the very real challenges 
that remain. But there are some reasons for cautious optimism, 
including the recent success of United Nations agencies and the 
International Committee of the Red Cross in making initial aid 
distributions freely and without interference.\16\
---------------------------------------------------------------------------
    \16\ Devex: Aid Reaches Famine-Hit Region in Southern Somalia (July 
27, 2011).
---------------------------------------------------------------------------
    The recent report of the U.N.'s Somalia Monitoring Group described 
how access for aid groups often varies considerably in different 
regions of the south, depending on local political and clan dynamics 
and their interplay with higher level political factors. That dynamic 
will largely shape the opportunities for response in southern Somalia, 
and provides further grounds for cautious optimism over what may be 
achievable. Regardless of the high-level political movements--positive 
or negative--aid groups will ultimately have to negotiate terms of safe 
and effective access with local leaders in communities across the 
south. Many aid groups will choose to work with or support local Somali 
civil society organizations, which have capacity and long experience 
working on humanitarian response. This will result in a sort of 
``patchwork quilt'' approach to assistance provision, with different 
agencies providing aid in whichever communities they are able to safely 
access. These arrangements are likely to remain highly fluid, and aid 
groups will have to show extreme flexibility and responsiveness to 
seize new opportunities quickly.
    Beyond southern Somalia, there is a great deal that can be done to 
prevent the rest of the region from descending into famine conditions. 
The humanitarian community has learned a great deal over the past few 
decades about how to deal more effectively with food crises. No longer 
does the international response to famine and drought center mainly on 
camps and food distribution. Instead, we follow several ``best 
practices'' learned from past disasters:

  <bullet> Work with markets, not against them: Mass food distribution 
        is not always the best way to deal with a food crisis; it can 
        sometimes distort and undermine local markets, put merchants 
        out of business, and degrade important market supply links. 
        Mass hunger is not a result simply of inadequate local food 
        production, but rather of inadequate resources amongst the 
        population to access food through their normal means. This 
        remains the case in the Horn, even in much of southern Somalia: 
        food can be found in the markets, but it is priced well beyond 
        the means of those who need it. This means that food voucher 
        and cash-based interventions, which enable people to afford 
        food, will be an important tool for combating hunger. These 
        interventions can also be more efficient than distributing food 
        aid, since they do not require the transport and importation of 
        food nor complicated distribution networks. In-kind food aid 
        will likely be needed to supplement what is available in 
        markets, but should not be the automatic first resort.
  <bullet> Preserve livelihoods, not just lives: Interventions that 
        seek to support the livelihoods of at-risk populations, as well 
        as save lives, will bear helpful dividends. The most effective 
        way to mitigate long-term impacts of the drought is to provide 
        assistance that protects the remnants of people's livelihoods 
        in the near term and helps them to rebuild their livelihoods 
        quickly in the medium term. This means interventions to protect 
        remaining animal stocks, like veterinary services and water 
        trucking; and agricultural support to ensure that farmers need 
        not miss the next planting season due to depleted seed stocks. 
        These sorts of livelihood-focused activities will reduce the 
        need for prolonged humanitarian support.\17\
---------------------------------------------------------------------------
    \17\ ALNAP: Slow-onset Disasters--Drought and Food and Livelihoods 
Insecurity (2007).
---------------------------------------------------------------------------
  <bullet> Pay attention to health: In the 1991-92 famine in Somalia, 
        the return of rain ironically posed major health challenges 
        because the drought-weakened population was extra-vulnerable to 
        water-borne diseases. Food aid and livelihoods support is not 
        enough to save lives in this kind of situation--aggressive 
        health care and emergency nutrition interventions are also 
        necessary. Opportunistic diseases that prey on a weakened 
        population will otherwise claim many lives.
  <bullet> Help people where they are: Aid programs that assist people 
        where they are, rather than inducing them to displace to other 
        areas, are both more efficient and more humane than camp-based 
        interventions. Preventing displacement minimizes social and 
        economic disruptions, enables continuation of livelihood 
        activities, and avoids the arduous and dangerous process of 
        abrupt relocation. It also avoids creation of semipermanent 
        refugee and displacement camps, which are expensive to maintain 
        and often hard to close down once a crisis ends.
  <bullet> Invest in long-term resiliency: Even as we focus on the 
        immediate crisis, the aid community and aid donors should be 
        thinking hard about how to build better resiliency to this type 
        of crisis. While this drought is extremely severe, lesser 
        droughts have become a common occurrence in the Horn in recent 
        years and are becoming a permanent fixture. Avoiding future 
        humanitarian crises will require that we seek to work with 
        governments and community leaders to help at-risk populations 
        to better manage their natural resources and develop successful 
        coping mechanisms. This must be a long-term investment and will 
        need to be sustained by donors even after the energy around the 
        current crisis has waned. Fortunately, sustaining longer term 
        investments in resiliency will save money over the long term by 
        mitigating the impact of recurring droughts on the population, 
        thus reducing the need for frequent humanitarian assistance.

    We know what we must do; what remains in question is whether we 
will be able to do it. This rests on two important unknowns. The first 
is whether the region at large--Somalia, Kenya, Ethiopia, Djibouti--
will receive sufficient resources to enable humanitarian agencies and 
regional governments to respond aggressively to mounting needs. The 
second is whether obstacles to humanitarian access in southern 
Somalia--principally the local restrictions and security threats, but 
also legal restrictions amongst donor states--will be removed in order 
to enable a response to scale up in that region. With these unknowns in 
mind, I would like to leave the committee with several recommendations:

    1. Ensure a robust U.S. Government response: As noted above, the 
U.S. response this year stands at less than half of what the Bush 
administration contributed to the region's drought response in 2008. 
While the U.S. and global contributions this year are generous, they do 
not approach the level that will be required to avoid a large-scale 
catastrophe--as Secretary Clinton herself acknowledged on July 20.\18\ 
USAID did a good job of regional prepositioning, and has been rapidly 
churning out new grants over the past month as the full scope of the 
disaster has emerged. But real questions remain about whether the 
United States will be able to step up like it did in 2008. The FY 2012 
outlook is not encouraging, with the House of Representative proposing 
to slash the very accounts that are financing the U.S. Government 
response: Food for Peace (a 30-percent proposed cut below FY11 levels, 
and 50 percent below FY08 levels); International Disaster Assistance (a 
12-percent proposed cut below FY11 levels); and Migration and Refugee 
Assistance (an 11-percent proposed cut below FY11 levels). Enacting 
such cuts in the face of the worst famine the world has seen in several 
decades would be disastrous, and I would urge the Senate to ensure that 
these accounts are protected in the FY 2012 budget deliberations. But I 
suspect that even more must be done. In years past, a disaster of this 
magnitude would have been cause for a supplemental--like the $3 billion 
supplemental that was passed last year to support the Haiti response. I 
would urge the Congress to consider a supplemental budget appropriation 
to address this crisis.
---------------------------------------------------------------------------
    \18\ Secretary Clinton: U.S. Response to Declaration of Famine in 
Somalia and Drought in the Horn of Africa (July 20, 2011).
---------------------------------------------------------------------------
    2. Engage the American public: Despite the severity of this crisis, 
there has been relatively little of the sort of active public 
engagement that we saw following the recent disasters in Haiti and 
Japan. This is troubling, because the ability of American aid 
organizations to respond robustly to a humanitarian disaster tends to 
track closely with the level of American popular engagement in the 
crisis. I would encourage all Members of Congress, as they head back to 
their districts for the August recess, to alert their constituents to 
the severity of what is now taking place in the Horn of Africa. I would 
also urge the White House to be much more vocal about this crisis. As 
we saw after the Haiti earthquake, calls by the President and First 
Lady for generosity can have a tremendous galvanizing impact on the 
American public. The ideal scenario might involve joint appeals by 
administration and congressional leaders to demonstrate that responding 
to human suffering on such a massive scale transcends political 
boundaries.
    3. Reform legal restrictions on U.S. response: As I noted earlier, 
the legal restrictions imposed under the Patriot Act and related law 
have thrown up significant roadblocks to the humanitarian response and 
impeded preparedness. The safety valve provided by OFAC licensing is 
useful and we hope that the administration's recent announcement will 
be implemented in a way that truly enables us to provide relief without 
fear of legal exposure. As a general rule of thumb, we would ask that 
the protections now extended to USAID through their OFAC license be 
extended in full to USAID's partners as well. But this development 
notwithstanding, we have seen over the past 2 years that obtaining an 
OFAC license if often politically difficult and massively time-
consuming. The fact that OFAC restrictions harmed U.S. capacity to 
prepare for and respond to a famine that was anticipated months in 
advance should give Congress pause. I suspect that those who wrote the 
laws did not have this sort of outcome in mind. I would strongly advise 
that Congress reexamine the interplay between OFAC restrictions and 
humanitarian aid, and explore whether a more streamlined and responsive 
approach can be found. A good place to start would be by expanding the 
list of exempted categories beyond medical supplies and religious 
materials, to also include assistance related to food, water, and 
shelter needs.

    I wish to sincerely thank the subcommittee for its focus on this 
tremendously important issue, and for extending me the privilege of 
testifying today.

    Senator Coons. Thank you very much.
    Dr. Pham.

  STATEMENT OF DR. J. PETER PHAM, DIRECTOR, MICHAEL S. ANSARI 
        AFRICA CENTER, ATLANTIC COUNCIL, WASHINGTON, DC

    Dr. Pham. Mr. Chairman, Ranking Member Isakson, I want to 
thank you for this opportunity to testify today on a very 
important issue.
    As we meet, the situation, as the other panelists have 
already stated, is especially grave. The U.N. refugee agency 
describes it as the worst humanitarian disaster in the world, 
with nearly half the Somali population facing starvation, while 
at least another 11 million men, women, and children across the 
Horn of Africa are at risk.
    Given this grim reality, the first concern of the 
international community is understandably focused where it 
should be: getting relief to the victims. However, in 
addressing immediate needs, attention should also be paid to 
the broader geopolitical context, as well as the long-term 
implications of the challenges before us.
    Since other witnesses testifying today are better 
positioned individually or institutionally to address the 
technical questions relating to the humanitarian crisis, its 
impact on vulnerable populations, and the logistics of getting 
assistance to them, I will concentrate on four key points which 
I believe policymakers in the United States and other 
responsible international actors should bear in mind in 
assessing the current situation, in determining adequate 
responses to it, as well as in planning longer term engagement 
with this region.
    First, al-Shabaab has a responsibility for exacerbating the 
crisis. While the group cannot be blamed for desertification 
trends, climate change, or meteorological conditions, the 
violent conflict it has engaged in, the economic and political 
policies it has pursued, have certainly worsened an already bad 
situation.
    Although in the past al-Shabaab has profited either by 
diversion or taxation of humanitarian aid, the amounts 
represented at most a small fraction of its broader revenue 
stream. Consequently, it is heartening to hear that the 
administration is working to clarify and, where necessary, ease 
the relevant restrictions in order to facilitate the work of 
humanitarian organizations. However, allow me to cite just one 
example of where the major funding al-Shabaab directly impact 
the current humanitarian crisis.
    For example, the industrial production for export of 
charcoal. It is estimated that somewhere around two-thirds of a 
forest which used to cover 15 percent of Somali territory have 
been reduced to chunks of ``black gold'' packed into 25-
kilogram bags and shipped to countries in the Persian Gulf. One 
cannot underestimate the negative environmental impact of all 
this, which earned al-Shabaab millions in profit, which is 
recycled into violence and terrorism.
    And if this were all not bad enough, once the famine set 
in,
al-Shabaab leaders have alternated between denying the crisis 
and preventing effective people from moving in search of food. 
Whether or not it is a formal policy of the group, I have 
reports from sources on the ground in the last 24 hours of at 
least three ``holding areas'' in lower Shabelle where al-
Shabaab forces are either using force or the threat thereof to 
keep displaced people from leaving the territory and finding 
help. And we can get into why they might be doing that.
    Second, far from being part of the solution, Somalia's 
Transitional Federal Government, the TFG, is part of the 
problem; in fact, a not insignificant cause of the ongoing 
crisis. The regime's unelected officials may be preferable to 
al-Shabaab insurgents, but they represent at best the choice of 
the lesser of two evils.
    Hobbled by corruption, weakness, and infighting, the TFG is 
of limited helpfulness in the face of the present humanitarian 
emergency. TFG leaders are likelier to see the crisis as yet 
another opportunity to capture rents, especially since their 
already extended mandate expires in 2 weeks, and it is for want 
of a ready-made plan B that the international community is not 
taking issue with the TFG leaders' arbitrary extension of their 
terms of office by another year. No wonder the official 
position of the Government of the United States, 
notwithstanding its engagement with the regime, is not to 
recognize the TFG or any other entity as the 
legal sovereign of Somalia.
    We need to pursue a permanent resolution to the ongoing 
crisis of state failure in Somalia if we want to avoid 
humanitarian emergencies in the future.
    Third, the sheer number of people moving in and from Somali 
territory will have an enormous and possibly permanent 
consequences for the region. The potential population shifts 
threaten to upend delicate political balances, as we well as 
present new security challenges for the Horn of Africa and 
beyond. If they are not to cause, however unintentionally, 
greater harm, responses to this mass migration need to be 
factored into these considerations.
    Finally, amid the crisis, there is nonetheless an 
opportunity to promote stability and security in Somalia. In 
fact, there is a narrow window of opportunity during which it 
might be possible to seriously weaken and possibly even finish 
al-Shabaab as a force in Somali politics once and for all. The 
disaster has exposed divisions within the movement, with some 
of its local councils and militias expressing a willingness to 
accept help, even as the leadership continues to spurn it.
    The disaster has exposed divisions with some of the groups 
within it and factions, and there are ways the international 
community can get assistance to drought-affected populations 
and so where they are rather than requiring of these poor 
people displace themselves and create additional challenges 
that will be dealt with down the road.
    I want to underscore that there are local NGOs with a 
proven ability to both deliver aid in hard-to-reach areas, all 
the while avoiding diversion of aid to al-Shabaab and other 
problematic entities.
    Again, thank you for attention. I look forward to your 
questions.
    [The prepared statement of Dr. Pham follows:]

                Prepared Statement of Dr. J. Peter Pham

    Mr. Chairman, Ranking Member lsakson, distinguished members of the 
subcommittee, I would like to thank you very much for the opportunity 
to testify today on the drought and famine conditions in the Horn of 
Africa in general and in Somalia in particular, as well as on the 
response of the United States and other members of the international 
community to this growing crisis.
    As we meet, the situation especially critical--the head of the 
United Nations refugee agency describes it as the ``worst humanitarian 
disaster'' in the world today--with nearly half of the Somali 
population, some 3.7 million people, facing starvation while at least 
another 11 million men, women, and children across the Horn of Africa 
are thought to be at risk.
    Given this grim reality, the first concern of the international 
community is, understandably, focused where it should be anyway: 
getting relief to the victims. However, in addressing immediate needs, 
attention should also be paid to the broader geopolitical context as 
well as the long-term implications of the challenges before us. Since 
other witnesses testifying today are better positioned, individually 
and institutionally, to address the technical questions relating to the 
scope of the crisis, its impact on vulnerable populations, and the 
logistics of getting assistance to them, I will concentrate on four key 
points which I believe the United States and other responsible 
international actors should bear in mind in assessing the current 
situation and determining adequate responses to it, as well as planning 
longer term engagement with this region:

    1. Al-Shabaab's responsibility in exacerbating the crisis. While 
the group cannot be blamed for the desertification trends, climate 
change, and meteorological conditions, the violent conflict it has 
engaged in and the economic and political policies it has pursued have 
certainly worsened a bad situation.
    2. Far from being a part of the solution, Somalia's ``Transitional 
Federal Government'' (TFG) is part of the problem--in fact, a not 
insignificant cause of the ongoing crisis. The regime's unelected 
officials may be preferable to the insurgents seeking to overthrow 
them, but they represent, at best, the international community's choice 
for the lesser of two evils.
    3. The sheer number of people on the move in and from Somali 
territory will have enormous and possibly permanent consequences for 
the region. The potential population shifts threaten to upend delicate 
political balances as well as present new security challenges for the 
Horn of Africa and beyond.
    4. Amid the crisis, there is, nonetheless, an opportunity to 
promote stability and security within Somalia, if not across the Horn 
of Africa. In fact, there is a narrow window of opportunity during 
which it might be possible to seriously weaken and possibly even finish 
al-Shabaab as a major force in Somali politics once and for all.
                    al-shabaab's role in the crisis
    Harakat al-Shabaab al-Mujahideen (``Movement of Warrior Youth,'' 
al-Shabaab) is not only linked ideologically with the global jihadist 
ideology of al-Qaeda and, increasingly, operationally with Yemen-based 
al-Qaeda in the Arabian Peninsula (AQAP), it is also an entity that 
richly deserves to opprobrium for its singular role in making what in 
any event would have been a very bad situation far, far worse.
    There is no doubt that the insecurity it has caused since it began 
its violent insurgency 4 years ago added greatly to the sufferings of 
the Somali people. Moreover, while al-Shabaab is far from a monolithic 
organization, its leadership does have a history of denying access to 
the areas under its control to U.N. relief agencies like UNICEF and the 
World Food. For their part, as is now well known, last year the 
international agencies as well as several nongovernmental organizations 
pulled out of several areas under the control of al-Shabaab after 
several aid workers were killed and the group began imposing strict 
conditions on their remaining colleagues, extorting ``security fees'' 
and ``taxes.'' Moreover, because al-Shabaab has been designated as an 
international terrorist organization by the United States and a number 
of other countries, NGOs have avoided working in areas it controls for 
fear of running afoul of laws against providing material support to 
terrorist groups.
    As a matter of fact--one which a number of analysts, including 
myself, have noted for some time and which was confirmed by the annual 
report to the U.N. Security Council by its Sanctions Monitoring Group 
for Somalia and Eritrea, a document released just last week--although 
al-Shabaab has profited, either by diversion or ``taxation,'' from 
humanitarian aid, the amounts represented at most a small fraction of 
its overall revenue stream. Consequently, it heartening to see that the 
administration is working to clarify and, where necessary, ease the 
relevant restrictions in order to facilitate the work of humanitarian 
organizations.
    A far more important source of income for the group is, in fact, 
more directly related to the humanitarian crisis: the industrial 
production for export of charcoal. While people living between the Juba 
and Shabelle rivers in southern Somalia have gathered charcoal for 
their own use from the region's acacia forests from time immemorial, it 
is only in the last few years that the production has reached its 
present unsustainable levels. It is estimated that somewhere around 
two-thirds of the forests which used to cover some 15 percent of Somali 
territory has been reduced to chunks of ``black gold,'' packed into 25-
kilogram bags, and shipped to countries in the Persian Gulf which have 
themselves banned the domestic production of charcoal. The U.N. 
Monitoring Group conservatively estimates that up to 4.5 million of 
these sacks are exported each year, primarily through the port of 
Kismayo, which has been controlled by al-Shabaab or other forces allied 
to its cause since September 2008, earning the group millions of 
dollars in profits. Meanwhile, where once there were the old-growth 
acacia stands, thorn bushes now proliferate, rendering the areas 
useless to the Somali people, whether they be pastoralists or 
agriculturalists (the former graze their livestock in the grass that 
flourishes where the root systems of acacia groves hold in ground water 
and prevent erosion, while the latter grow staple crops in neighboring 
lands so long as there are tree stands holding in top soil), and 
contributing further to the desertification that is always a persistent 
threat in a land as arid or semiarid as Somalia. Thus, it was both 
simultaneously tragic and ironic that, when a heavy rain came briefly 
this past weekend to what was formerly the country's breadbasket, the 
result was not deliverance, but disaster as, absent any foliage to help 
absorb the precipitation, flash floods compounded the misery in several 
places.
    Al-Shabaab also operates a complex system of taxation on residents 
within areas it controls and imposes levies not just on aid groups, but 
also businesses, sales transactions, and land. The tax on arable land 
in particular has had the effect of changing the political economy of 
farming communities which previously eked out a living just above 
subsistence. For example, in Bakool and Lower Shabelle--precisely the 
two areas at the epicenter of the famine--communities used to grow 
their own food and, whenever possible, stored any surplus sorghum or 
maize against times of hardship. However, when al-Shabaab imposed a 
monetary levy on acreage, farmers were pushed into growing cash crops 
like sesame which could be sold to traders connected with the Islamist 
movement's leadership for export in order to obtain the funds to pay 
the obligatory ``jihad war contributions.'' However rich in 
antioxidants sesame seeds may be, they are of rather limited value for 
purposes of food security.
    If all this were not bad enough, once the famine set in, al-Shabaab 
leaders have alternated between denying the crisis--arguing instead 
that accounts of hunger were being ``exaggerated'' in order to 
undermine their hold over the populace--and preventing affected people 
from moving in search of food. Whether or not it is a formal policy of 
the group or not, there are credible reports from sources on the ground 
of at least several ``holding areas'' in Lower Shabelle where al-
Shabaab forces are using force or the threat thereof to prevent 
displaced people from leaving its territory to find help.
                      somalia's dysfunctional tfg
    In congressional testimony 2 years ago, I noted that the TFG was 
``not a government by any common-sense definition of the term: it is 
entirely dependent on foreign troops . . . to protect its small enclave 
in Mogadishu, but otherwise administers no territory; even within this 
restricted zone, it has shown no functional capacity to govern, much 
less provide even minimal services to its citizens.'' And that was 
before the famine.
    Despite the fact that, at not inconsiderable sacrifice, the African 
Union Mission in Somalia (AMISOM) peacekeeping force protecting the 
regime has managed to extend its operational reach to now be present in 
13 of Mogadishu's 16 districts--although the force commander, Ugandan 
Major General Nathan Mugisha, acknowledges that his troops ``dominate'' 
in just ``more than half of these''--the TFG remains hobbled by 
corruption and infighting. Quite frankly, the so-called ``government'' 
lead by Sheikh Sharif Sheikh Ahmed is little better than a criminal 
enterprise--one that its own auditors reported stole more than 96 
percent of the bilateral assistance it received in the years 2009 and 
2010. The findings contained in the U.N. Monitoring Group report were 
perhaps even more damning: ``Diversion of arms and ammunition from the 
Transitional Federal Government and its affiliated militias has been 
another significant source of supply to arms dealers in Mogadishu, and 
by extension to al-Shabaab.'' The investigators even highlighted case 
where an RPG launcher and associated munitions, purchased for the 
regime under a U.S. State Department contract, found their way into a 
stronghold of al-Shabaab that AMISOM captured earlier this year.
    It should thus come as no surprise that such ``leaders'' are of 
limited helpfulness in the face of the present humanitarian emergency. 
They are likely to see it as yet another opportunity to capture rents, 
especially since their already extended mandate expires in 2 weeks and 
it is for want of a ready-made ``Plan B'' that the international 
community is not taking issue with the TFG's leaders arbitrarily 
proroguing their terms of office by another year--although on what 
legal grounds is anyone's guess. (No wonder the official position of 
the Government of the United States, expressed in a brief filed before 
the U.S. Supreme Court last year by then-Solicitor-General Elena Kagan 
as well as the Legal Advisor of the Department of State, is that since 
the fall of the dictator Muhammad Siyad Barre in 1991, ``the United 
States has not recognized any entity as the government of Somalia'' and 
that federal courts should ``not attach significance to statements of 
the TFG'' absent specific guidance from the executive branch.)
                             mass migration
    Given this context, it should come as no surprise that Somalis are 
on the move. The Dabaab refugee camp in northeastern Kenya, which was 
built in 1992 during the last great Somali famine to temporarily house 
90,000 people, nowadays hosts more than 400,000, with more than 1,000 
additional persons arriving each day. Another 112,000 refugees have 
found shelter in the Dollo Ado area of Ethiopia. And these are the 
lucky ones: it is estimated that there are possibly 1.5 million Somalis 
internally displaced within their own country, with some unfortunates 
even literally caught in the no man's land at outskirts of Mogadishu 
between the frontline positions of the insurgents and AMISOM troops. 
And, it needs to be emphasized that all of this is before the coming 
months when conditions are expected to be even worse.
    Given the parlous conditions prevalent across the territory of the 
former Somali state (outside of Somaliland in the northwest, Puntland 
in the northeast, and possibly a few other places), it is virtually 
assured that any Somali who crosses the border into Kenya or Ethiopia 
is likely to become ipso facto a permanent emigrant (after all, 
Somalia's contemporary economy, it should not be forgotten, has been 
transformed into one built upon remittances from the diaspora). In any 
event, since there has been no rush of third countries offering 
resettlement to the preexistent Somali refugee population before the 
famine, there is no reason to think that things will be different with 
the influx of new arrivals. Kenya and Ethiopia, however, are beset with 
complicated issues with their own ethnic Somali minorities; neither 
country is in much of a position to absorb hundreds of thousands, if 
not millions, of itinerant Somalis.
    Consequently a population shift such as what we are witnessing in 
the Horn of Africa--a literal exodus of Biblical proportions--threatens 
to upend delicate political balances as well as present a host of new 
security challenges. In fact, concerns over security and the adequate 
screening (or lack thereof) of Somalis entering their country have 
already exposed one rift within Kenya's national unity government 
between Prime Minister Raila Odinga, who opened the border as a 
humanitarian gesture, and some of his ministers who oppose the move. A 
quick perusal of Kenyan newspapers is enough to confirm that this 
question will undoubtedly enjoy a high profile as the East African 
country enters its electoral season next year.
    Thus, if they are not to cause, however unintentionally, even 
greater harm, responses to the mass migration set in motion first by 
the prolonged Somali crisis and now the famine need to take factor in 
these realities.
                  a chance for stability and security
    If one dares contemplate a silver lining to the current crisis--
although it comes at a terrible price--it is that it has apparently 
caught al-Shabaab off guard.
    For a long time, despite the extremist ideology espoused by its 
foreign-influenced leaders which set them outside the mainstream of 
Somali culture and society,
al-Shabaab could present itself as being better (even if harsher) 
rulers than the corrupt denizens of the TFG. The brutal hudud 
punishments its tribunals meted out, for example, may have been utterly 
alien from the Somali experience, but it was a rough justice 
nonetheless and better than the chaos and lawlessness that was the 
experience of many Somalis in the 1990s. Moreover, the group managed to 
wrap itself up in the mantle of Somali nationalism by portraying the 
African Union peacekeepers as foreign occupiers, although the fact that 
AMISOM troops are propping up the despised TFG and, in the process, 
cause civilian casualties, made this narrative all the more credible.
    Within the last year, however, AMISOM has improved its capabilities 
and managed to lower civilian casualties even as it pushed al-Shabaab 
forces back within Mogadishu. In addition, the famine and al-Shabaab's 
clumsy response to it have thoroughly dispelled any delusions about the 
``good governance'' capabilities by the movement. Now the effects of 
famine are not only exacerbated by al-Shabaab, but the disaster has 
exposed divisions within the movement with some of its local councils 
and militias expressing a willingness to accept help even as the 
leadership continues to spurn it. Moreover, actions like the blocking 
of people trying to escape the famine will sap al-Shabaab of what 
remains of its popular legitimacy. (Of course, if one is seeking to use 
this opportunity to undermine al-Shabaab, it would be helpful if a 
prospect more attractive than domination by the venal TFG was offered 
to communities just freed from the militants' yoke.)
    While there is undoubtedly some risk in sending aid areas where al-
Shabaab operates, it is more probable that whatever negative effects 
the assistance will have will fall largely on the group, either as some 
of its local leaders defect or populations are weaned from their 
reliance on them. And there are organizations--not all of them 
necessarily international--with a track record of delivering 
assistance, even within al-Shabaab held areas, without allowing 
resources to be diverted. One that comes to mind is SAACID, the 
extraordinary nongovernmental organization founded and directed by 
Somali women, which is engaged in conflict transformation, women's 
empowerment, education, health care, emergency relief, employment 
schemes, and development. SAACID's modus operandi is a model for 
others. SAACID gets food from, among other partners, the World Food 
Programme--when, that is, the latter agency has any. By working closely 
with clan elders and community members, it embeds itself in its 
immediate surroundings and thus can carry on in areas where, for 
example, the WFP can no longer go because the presence of al-Shabaab. 
Thus, during the height of the fighting in Mogadishu in recent years, 
SAACID was literally the only entity that was present in all 16 of the 
capital's districts, providing some 80,000 2,000-calorie meals daily to 
some of the most vulnerable residents.
    Such a model is one way the international community can get 
assistance to drought-affected populations and do so where they are, 
rather than requiring that these poor people displace themselves and, 
consequently, create additional challenges which will have to be dealt 
with further down the road after the initial emergency has passed.
    And it goes without saying that should security be improved in 
Somalia and the mass emigration halted, if not reversed, the prospects 
for the increasingly important subregion at the crossroads of the 
Africa and the Middle East will brighten immensely.
                               conclusion
    Confronted with the dreadful specter of mass starvation on a scale 
not seen in more than half a century, the priority most assuredly is to 
get life-giving assistance to those most at risk and to do so in the 
most timely, efficient, and effective manner possible. However, urgency 
is no dispensation from the ethical and political responsibility both 
to understand to what caused or heightened the emergency and to 
consider the possible consequences of any proposed responses to it. 
Increased material resources are clearly needed, but even more, what is 
required is sustained engagement and not a little bit of strategic 
vision.

    Senator Coons. Thank you, Doctor.
    Mr. Schaap.

 STATEMENT OF WOUTER SCHAAP, ASSISTANT COUNTRY DIRECTOR, CARE 
             INTERNATIONAL SOMALIA, NAIROBI, KENYA

    Mr. Schaap. Mr. Chairman, Senator Isakson, thank you very 
much for this opportunity you have given us to testify today on 
this horrible situation that we are facing in the Horn of 
Africa.
    I speak today on behalf of CARE, a leading international 
humanitarian organization fighting global poverty. And we have 
six decades of experience in helping to prepare for and respond 
to natural disasters, providing life-saving assistance in 
crises, and helping communities recover after an emergency.
    We place special focus on women and children, and yet again 
in this crisis, they bear the brunt of what is happening.
    Myself as assistant country director for programs for CARE 
in Somalia, I see firsthand in my work the consequences that 
tens of thousands of people are facing today. I have worked in 
the Horn for 7 years now, traveling extensively within Somalia, 
both in the north and in the south. I recently returned from a 
trip to IDP camps in drought-affected areas in the north, and 
what we see there is probably less dramatic than what we see in 
some parts of the south, yet the stories we hear are horrible.
    A woman that I met in one of the IDP camps in Gardho, with 
a severely malnourished child on her arm, explained to me she 
did not have any money to go to the health clinic to seek 
assistance for her child, and that assistance was not available 
there. You could see in her eyes she was severely traumatized 
by the experiences in the south and the things that she had 
seen there.
    I met a father in the Sanaag region who had recently lost 
his wife. And he was there nursing his five remaining cows. The 
cows were bleeding from their noses, and he was trying to do 
something about it, but not really knowing what to do. And our 
staff said, well, this is a lost cause.
    These kind of experiences my staff see on a very regular 
basis, and they are stories that remain with you for the rest 
of your life.
    Our response to the emergency in the Horn began to scale up 
in 2011--the beginning of 2011--when the early signs were clear 
that this was going to be a major crisis. Today we are helping 
more than 1 million people in Ethiopia, Somalia, and Kenya with 
life-saving food, water, nutrition, and other life-saving 
emergency assistance. CARE, for instance, is one of the largest 
agencies working in Dadaab. We also support longer term 
activities that help people become more resilient to drought.
    The severity of the situation is extremely worrying, and 
other speakers have spoken at length about that, so I will keep 
my remarks on that quite short. But the worry is that the 
situation is not at its worst yet. The deepest part of a 
drought is normally the month before the rains come, and then 
people are weakened. And so, by September, we are going to see 
a significantly increased number of deaths due to diseases that 
affect this already weakened population.
    So, as my colleagues have said, agencies know now how to 
deal with this kind of situation, that we need to focus on a 
broad range of services--of water sanitation, health, 
nutrition, food--and address those multiple causes of deaths in 
a famine crisis.
    However, unfortunately there is still a major funding gap 
in the region of $1.4 billion U.S. dollars for the consolidated 
appeal of the U.N. This is really a worry, notwithstanding all 
the generous contributions from various donors. And we really 
appreciate the support from the U.S. Government for our work in 
the three countries where we have been supported by BPRN, OFTA, 
and others. And we really appreciate that. However, it is not 
enough. The crisis is so massive it needs additional support.
    The access issues have been discussed at length. The 
ongoing conflict in the south is making it much more difficult 
to get access to the south. And what we are seeing is that 
agencies already present there, local NGOs, other international 
NGOs that work there have an ability to negotiate some level of 
access, but it is limited.
    And unfortunately, aid is at risk of becoming very 
politicized in this environment. It is very important for all 
sides to this conflict to let humanitarian principles--
neutrality and impartiality--guide all of our discussions on 
humanitarian assistance. And we are determined to provide only 
assistance to those people that are most in need, and 
assistance in place to ensure that only those people get it.
    We are urging local authorities in southern Somalia to 
grant an uninhibited and unconditional access. But the crisis 
is happening now, and it needs a concerted, thoughtful, careful 
diplomatic work of U.N. donors and NGOs to get aid to the 
victims of famine wherever they are. And now is really the time 
to have space and reach out to all parties of the conflict and 
work to save the lives of tens of thousands of people, and to 
avoid politicization of the issues.
    We have been speaking with colleagues from the U.S. 
Government about the legal issues that have concerned us. And 
we really appreciate the recent steps taken by the U.S. 
Government, specifically for programs funded by USAID and the 
Department of State. Questions, however, remain on the ability 
of the U.S. NGOs to program funding from non-U.S. Government 
donors, for instance, the U.S. public. NGOs get large sums of 
money from the U.S. public, but this funding does not fall 
under the OFAC licensing that is now being put in place for 
NGOs. That would only be covered if you have funding from the 
U.S. Government for south central Somalia. Other funding, like 
ECO, DFID, that would not be covered for U.S.-based NGOs, and 
those are major sources of funding for U.S.-based NGOs.
    The long-term implications--we need to start thinking about 
those as well now. And I am sorry I am running a little bit 
over time.
    These are very marginalized populations, and they are among 
the most vulnerable to the impact of changes in the weather 
patterns. When I started working on Somalia, we would see a 
drought every 5 years. Now, it is just a continuous cycle of 
mist seasons, and things are really changing. People are 
finding it very difficult to adjust to these changes, but we 
know that there are things that we can do to help that, and we 
need to invest in that in the years to come.
    Our recommendations, I just would just sum up. The 
expansion and the speed of funding for the crisis is really 
important. The urgency is there, but we are seeing that major 
donors take quite a substantial time for funding to become 
available on the ground to support our work. And we urge donors 
to be faster in their processes and move things forward.
    We need to start planning for increased long-term support 
for resilience in these areas. And we need concerted, 
thoughtful, and careful diplomatic work of United Nations 
donors and NGOs to negotiate access on the ground and help to 
support a public climate in which those efforts can actually 
take place by the agencies working there.
    And the efforts by the U.S. Government to ease legal 
restrictions for U.S. Government-funded work is really 
appreciated, but it is not enough, because we are at risk when 
we use other governments' funding and U.S. public funding, for 
instance.
    So, on that last item, we really need some very urgent 
action forward. The NGO community is ready to engage the 
appropriate U.S. Government agencies' developed, constructive 
options to alleviate the effects of famine, while controlling 
the risk of diversion. And there are precedents for this in 
Burma and Iran and more recently in Gaza, and that could be 
achieved in two different ways. First, issuance of a general 
license from OFAC that would reduce the risk of prosecution due 
to transactions that may be incidental to the famine response. 
And, second, favorable and very expeditious processing of 
specific license requests to OFAC from U.S.-based NGOs. Those 
things would really help agencies place themselves in a 
position where they can start negotiating for access on the 
ground.
    Thank you.
    [The prepared statement of Mr. Schaap follows:]

                  Prepared Statement of Wouter Schaap

    Mr. Chairman, Senator Isakson, members of the subcommittee, thank 
you for the opportunity to testify today and join with you in this 
critically important and timely hearing on the crisis in the Horn of 
Africa.
    I speak today of behalf of CARE, a leading international 
humanitarian organization fighting global poverty. CARE has more than 
six decades of experience in helping people prepare and respond to 
natural disasters, providing lifesaving assistance when a crisis hits, 
and helping communities recover after the emergency. CARE places a 
special focus on women and children, who are often disproportionately 
affected by disasters, as is the case in the Horn of Africa Crisis with 
the majority of those fleeing Somalia to refugee camps in Ethiopia and 
Kenya women and children.
    As Assistant Country Director for Programs for CARE Somalia, I have 
seen first-hand, the dire circumstances tens of thousands of 
individuals in the region face. I have worked in the Horn of Africa for 
over 7 years, traveling extensively within Somalia, both in the North 
and South. I recently returned from visits to IDP camps and drought 
affected areas in the North. I will never forget some of the 
individuals I met there: the mother in a camp in Gardho town in 
Puntland with her sick malnourished child on her arm who had fled the 
conflict in the South, or the pastoralist man up in Sanaag region in 
Somaliland desperately trying to save his remaining three cows in front 
of his rural homestead and many others.
    East Africa is currently in the grips of the worst drought in 60 
years, affecting an estimated 12 million people in Somalia, Ethiopia, 
and Kenya at risk of hunger, starvation, and other ills related to the 
drought. This is the most severe food crisis in the world today, with a 
desperate need of humanitarian aid in the region. The situation in the 
Horn of Africa is so dire that on July 20, the U.N. declared a famine 
in the Lower Shabelle and Bakool regions of southern Somalia. It is 
feared that all southern and central regions will be in a similar 
situation in the coming weeks and months if immediate measures are not 
taken to provide emergency relief. The situation in Kenya, Ethiopia, 
northern Somalia, and Djibouti is also dire, with not only large 
refugee and IDP populations to take care of, but also very large 
drought affected populations that are in need of immediate assistance. 
Huge swaths of these countries are already characterized as ``emergency 
phase,'' the level immediately before famine. Overall in the Horn of 
Africa region, the U.N. says that $2.5 billion is needed for the 
humanitarian response. While $1.1 billion has been pledged, it is 
estimated that an additional $1.4 billion is urgently needed. The 
United States should play a leading role in ensuring that this 
requirement is met.
    CARE's emergency response to the drought in the Horn began to scale 
up at the beginning of 2011 when the beginnings of the crisis first 
became apparent. Today, we are helping more than 1 million people in 
Ethiopia, Somalia, and Kenya with lifesaving food, cash, water, 
destocking and other emergency assistance, but also drought resilience 
activities such as livestock health activities, natural resource 
management, vocational training, and savings groups that help people 
diversify livelihoods, save their assets, and buy food for their 
families. In our work we pay special attention to the vulnerable women 
and girls, who are especially at risk to the current crisis.
    Somalia faces the highest malnutrition rates in the world. 
Consecutive seasons of poor rainfall have created serious food crisis 
and extensive displacement in southern Somalia. The crisis is only 
expected to get worse in the next few months as the next regular rainy 
season is in October. Famine may spread to other regions. The drought 
has caused a devastatingly high mortality rate of animals, with levels 
as high as 40-60 percent, especially for cattle and sheep. UNHCR 
reports that more than 85,000 Somalis have sought refuge in Kenya since 
January, 2011, with daily arrivals now exceeding 1,500. The rate of 
Somali refugees arriving in southern Ethiopia has also jumped from 
5,000 per month to more than 30,000 per month in the June.
       care in the horn of africa (kenya, ethiopia, and somalia)
    CARE's emergency interventions in the Horn of Africa are driven by 
the humanitarian imperatives of saving lives, reducing suffering, 
restoring dignity and rebuilding livelihoods. Our work is guided by 
humanitarian principles of neutrality and independence.
    In Dadaab, the largest refugee camp in the world, CARE is the lead 
implementing agency for water and hygiene, food distribution, and 
education, providing support for the more than 390,000 refugees in the 
camp. CARE in Kenya has worked in the refugee camps around Dadaab since 
1992. CARE provides food and water for each of the three main camps, 
currently with a population of over 393,000 refugees. As part of this 
latest influx of refugees CARE is working with our partners in the U.N. 
and other INGOs to provide immediate food, shelter materials, and 
support to victims of sexual and gender based violence. CARE is 
extending our water delivery system within the camps to the temporary 
areas where new arrivals wait for allocation to a space within the 
camps.
    In Dadaab, we are experiencing an influx of over 1,500 new refugees 
arriving every day, many of them severely malnourished. This has put 
enormous pressure on already overstretched resources in the refugee 
camps. While CARE immediately scaled up its capacity and initiated 
emergency response to the situation, no organization could have 
prepared for the dramatic influx of new refugees. CARE is working 
alongside UNHCR and the World Food Programme to ensure refugees in the 
camps are receiving live-saving support they desperately need. The 
State Department's Bureau of Population, Refugees and Migration 
provides support to this vital emergency programming in Dadaab.
    Apart from this work with the refugees arriving from Somalia, CARE 
also works with the Kenyan communities of the northeast to rehabilitate 
water facilities, to provide cash through relief work programs, and to 
partner with the Government of Kenya in disease surveillance and 
vaccination of the remaining animals that these pastoralist communities 
rely upon. Our approach is strongly focused on building the capacity of 
communities to manage their own water resources, rangelands and 
environment as the changing climate will bring more erratic rainfall 
and drought years in the future. It is essential that the assistance 
provided by the international community and the Government of Kenya 
emphasizes that the humanitarian response can help to increase 
resilience, instead of increasing the vulnerability and dependence on 
external support that can result from such interventions.
    CARE has a longstanding presence in Ethiopia, working in the 
country for over 25 years. Because CARE has ongoing long-term 
programming in Borena zone of southern Ethiopia, most of which focuses 
on helping communities to build resiliency to climactic shocks, we 
began raising the likelihood of La Nina drought almost exactly a year 
ago. As that unfortunate projection has become reality, CARE has been 
able to scale up its response interventions in close collaboration with 
local communities and government. To date, CARE's emergency response 
activities in Ethiopia have reached a quarter of a million people, 
providing them with food, water and sanitation, nutritional support and 
livelihoods assistance. Some of these interventions are literally and 
immediately life-saving, while others are aimed at saving lives in the 
months ahead. For example, by slaughtering cattle no longer fit for the 
market--with small cash payment to owners and meat distributed amongst 
the neediest--families receive some much-needed cash to meet immediate 
needs and the burden on dwindling pasture and water resources reduced, 
improving survival rates of the culled herds and reducing the burden on 
the environment. Although the situation is already quite dire 
throughout much of southern Ethiopia, even if the next rains are better 
than projected they will not arrive for several weeks. In anticipation 
of a worsening drought, therefore, CARE is increasing the intensity of 
its efforts, especially in the rehabilitation of water points and 
provision of nutritional support.
    CARE's interventions in Somalia are also aimed at addressing the 
long-term underlying causes of the problems as well as responding to 
the immediate crises caused by drought and conflict. Many parts of 
Somalia have experienced several cycles of drought, which has affected 
the coping capacity of communities. It takes a goat or sheep 5 months 
to reproduce, and with the successive cycles of drought, we have seen a 
major erosion of people's asset base, with many people having lost 
hundreds of sheep or goats and dozens of camels and cattle. In drought-
affected areas of North Somalia we support a large-scale cash relief 
program, doing both cash for work as well as immediate cash handouts to 
the most vulnerable within the community. Other emergency work 
comprises of supplementary feeding, provision of water and sanitation 
and nonfood items for IDPs. In some cases our staff does direct 
programming, and in some cases we work through partners. In all cases 
we have rigorous processes in place to verify quality and quantity of 
the works, and ensure that money ends up with the right people. The 
situation on the ground is extremely complex. Even in the remote parts 
of the North control by regional governments is at times limited and 
needs strong community involvement to help ensure disputes are resolved 
and access is maintained.
    The majority of the refugees displaced or fleeing Somalia are women 
and children. Since January, 2011, approximately 70 percent of those 
arriving at the camps in Dadaab are women-headed households. To support 
the newly arriving refugees, CARE has increased its capacity to 
respond, particularly for vulnerable women and girls. In addition to 
severe malnutrition, the deep psychological affects that drought and 
subsequent movement can have on the women refugees are immense. We have 
witnessed high levels of anxiety, panic, and trauma due to loss of 
family members along the way, what U.N. World Food Programme Executive 
Director, Josette Sheeran, aptly referred to as ``roads of death.'' 
These women are sharing with our staff stories of rape, violence, and 
hunger. Compounding the problems for the thousands of female refugees 
fleeing conflict and hunger in the Horn of Africa is the threat of rape 
and sexual violence. According to recent UNHCR reports, the number of 
sexual and gender-based violence cases has quadrupled: 358 incidents 
reported from January-June 2011 in comparison with 75 during the same 
period in 2010. At CARE's reception center screening tents in two of 
the refugee camp numbers have more than doubled.
                           famine in somalia
    On July 20, the U.N. declared famine in two regions of southern 
Somalia: Bakol and Lower Shabelle. The daily death toll due to 
malnutrition in these regions has surpassed 2 per 10,000 people, while 
around 40 percent of children are acutely malnourished. In some regions 
the mortality rate is now 6 per 10,000 people per day. It is feared 
that all southern and central regions will be in a similar famine 
situation within the next 6-8 weeks if immediate measures are not taken 
to provide emergency relief. Overall, there are more than 3.7 million 
Somalis that need urgent lifesaving assistance. Tens of thousands of 
people have died, and tens of thousands more will die if aid is not 
scaled up. The current dry season extends to September, and even after 
that it will take people months to recover. The crisis is therefore 
expected to last at least until the end of the year.
    What is needed is food and/or cash assistance, nutritional support 
to malnourished children, water, sanitation and health services. In the 
1992 famine a large proportion of deaths were due to preventable 
diseases impacting on a severely weakened population. With the rainy 
season approaching and the large numbers of IDPs in Somalia, this is a 
major concern for humanitarian workers.
    Somalia is a complex emergency as both drought and conflict 
continue to take human lives and are forcing people to migrate to other 
areas in search for food and shelter. The situation has gradually 
deteriorated over the course of a number of years, eroding people's 
coping capacity. Tens of thousands of people who have lost everything 
they owned due to the drought are on the move, both inside and outside 
Somalia. This is true both in the south of Somalia, as well as in the 
north of the country, over the last 2 years, we have seen a gradual 
increase in numbers of people moving from rural areas to towns and 
cities after losing all their livestock. Many people from the south are 
moving to the camps in Kenya and Ethiopia, whilst other are moving to 
camps in the north of the country. Furthermore, despite being the site 
of active conflict, UNHCR reports that over 100,000 IDPs have moved to 
the city of Mogadishu.
    CARE's interventions in Somalia aim to both address the long term 
underlying causes of the recurring drought crises as well as respond to 
the immediate humanitarian needs caused by drought and conflict. Our 
emergency work comprises of supplementary feeding, cash relief, water 
and sanitation, and nonfood items for IDPs, including basic survival 
items, such as plastic sheeting for shelter, buckets for gathering 
water, and utensils for cooking. The unfolding catastrophe in Somalia 
has spilled over into other countries of the region. The best way to 
minimize the impact of the famine and to support affected communities 
is to provide aid directly to communities where they live rather than 
people having to become refugees and IDPs in order to access 
humanitarian assistance.
    Humanitarian agencies are trying in very difficult circumstances to 
ensure that desperately needed aid can reach the most vulnerable people 
within the region, the majority of them women and children. All of us 
are very aware that delays are costing lives. However, the ongoing 
conflict in the south means that it is much more difficult to get aid 
to this part of the country. A number of agencies have started scaling 
up their activities in south central, but it will still come too late 
for tens of thousands of Somalis living in this area, with women and 
children expected to suffer the most. Agencies with an established 
presence in the south are likely be able to respond more effectively to 
the needs of communities in these areas than new agencies or agencies 
that have left the south. While CARE does not currently have an 
operational presence in the south, we are doing what we can to support 
others that do.
    Compounding the problem is that aid is at risk of becoming 
politicized in this environment, and it is important for all sides to 
the conflict to let common humanitarian principles of neutrality and 
impartiality guide any of the discussions on humanitarian assistance. 
We urge governments around the world, including the U.S. Government, to 
avoid strong political statements that have the potential to enflame 
local sensitivities and thereby further reduce humanitarian access. The 
crisis is happening now, and it needs concerted, thoughtful, careful 
diplomatic work of U.N., donors and NGOs to get aid to the victims of 
famine where ever they are. Now is the time to ensure there is space to 
reach out to all parties of the conflict and work to save the lives of 
tens of thousands of Somalis. At the same time we urge all local 
authorities in southern Somalia to grant uninhibited and unconditional 
access to the people affected by the drought.
    CARE urges all donors, including, the United States, to review and 
ease legal hurdles impeding provision of emergency assistance in 
Somalia. We anticipate that the legal restrictions are most acute in 
those areas controlled by armed opposition groups. Increased 
flexibility will ensure that organizations can more easily program 
funding in areas that otherwise might not be reached, therefore fully 
leveraging the generosity of our donors. We understand and highly value 
the need for accountability of aid; aid agencies are therefore doing 
their utmost to ensure aid reaches beneficiaries and no aid is diverted 
to armed groups on either side of the conflict. We also understand and 
take seriously our compliance responsibilities under U.S. law. We 
anticipate, however, that the ability of humanitarian actors to adhere 
to these compliance responsibilities will likely to be tested in areas 
firmly controlled by prohibited entities.
    We applaud the recent steps taken by the U.S. Government to loosen 
legal restrictions relating to programs funded by USAID and the 
Department of State. However, questions remain as to the ability of 
U.S. organizations to program funding from non-U.S. Government donors 
such as the Humanitarian Aid Department of the European Commission 
(ECHO), the Department for International Development (DfID), and 
others, as well as private U.S. donors including foundations and 
corporations. We anticipate that funding from such donors will be 
significant. We therefore urge the U.S. Government to take additional 
steps to provide relief from certain legal risks for U.S. organizations 
providing famine relief in areas controlled by prohibited entities, 
such as the issuance of a General License from the Office of Foreign 
Asset Controls (OFAC) allowing U.S. persons to engage in certain 
transactions that may be incidental to the delivery of humanitarian 
relief in Somalia. Historical and illustrative precedent for this 
practice exists, including the earthquake response in Bam, Iran in 
2004, and more recently in Gaza. Additionally, we request expedited 
processing and favorable consideration of any specific licenses that 
U.S. organizations may seek with respect to their work in Somalia, as 
well as guidance that will allow organizations to fully understand OFAC 
licensing policy.
                            long-term needs
    While focusing in the immediate term on the acute needs of the 
populations in the Horn of Africa, we also must look at building longer 
term resilience among poor, vulnerable populations throughout 
developing countries.
    We must work to address the underlying causes of hunger and 
poverty. Within our programs in the Horn of Africa, CARE continuously 
emphasizes the need to tackle the long-term, underlying causes of 
poverty. We are helping to break the cycle of hunger and to adapt to 
the changing climate and reoccurring draughts. In Kenya, for example, 
CARE focuses on disaster risk reduction measures lead by local 
communities to create resilience. This includes natural resource 
management, livestock marketing, as well as activities to improve 
community capacity in business management and marketing skills. CARE 
works with communities to diversify their livelihood sources, such as 
milk marketing, beekeeping and fodder production, and protect assets to 
reduce the longer term debilitating impacts of crisis and shock.
    CARE strongly supports the Obama administration's Feed the Future 
Initiative to reduce global hunger and poverty though a comprehensive 
whole-of-government approach to increase global agriculture sector 
growth and improve nutritional status, especially women and children. 
CARE supported legislation introduced in the last Congress by the 
ranking member of the full committee, Senator Lugar, with support from 
others on the committee, including Chairman Kerry--the Global Food 
Security Act, which passed this committee, but unfortunately that is as 
far as it got. One of the lessons learned in the current crisis in the 
Horn is evident in Ethiopia, where CARE, USAID, and other partners have 
been working in partnership with the Government of Ethiopia on a 
Productive Safety Net Program launched in 2005--the Household Income 
Building and Rural Empowerment for Transformation (HIBRET) program. 
This program is aimed at protecting resource poor households while 
preventing asset depletion at the household level. Programs like this 
have helped to increase community resilience in Ethiopia and reduced 
the number of Ethiopians requiring humanitarian assistance during this 
drought compared to the last serious drought in 2002-2003. Investing in 
social safety net programs those in Ethiopia is critical to alleviating 
chronic hunger and poverty.
    Research indicates that climate change will lead to more frequent, 
severe, and intense extreme weather events--like droughts as well as 
floods and storms. What we also know from what communities are telling 
us on the ground is that weather patterns in the Horn of Africa have 
significantly changed over the last 10 years, with rains less 
predictable now than they were before. The world's poor and 
marginalized populations are among the most vulnerable to the impacts 
of climate change. They live on the edge of crisis already, and climate 
change threatens to push them off that edge. Women are often among the 
most vulnerable within communities and households because they are 
often tasked with collecting food and water--climate sensitive tasks 
that (as we can see in the Horn of Africa) become much more difficult 
in the face of extreme climate conditions.
    It is critical to build the resilience of these populations to 
climate impacts and shocks. Building resilience among vulnerable 
populations is about increasing their ability to be flexible in the 
face of uncertainty and to access the resources and opportunities they 
need to adapt. At the same time, we must also tackle the underlying 
causes of their vulnerability. These efforts include: supporting 
livelihood diversification, promoting savings and insurance schemes to 
provide a safety net for vulnerable populations, community and 
government led early warning systems and other drought preparedness 
measures. We need to support men and women to access the resources, 
rights and opportunities they need to adapt to their changing 
environment, their ability to access land and water, and women's 
ability to expand their control over household income, by supporting 
education work and activities that address women's ability to shape 
their own destiny inside and outside the household.
    And while some will disagree on the cause of drought, the reality 
on the ground in the Horn is that the weather patterns have changed--be 
it through climate change or other causes--and we must provide adequate 
resources for the mitigation and adaptation to our changing climate.
                            recommendations
    Given the gravity of the situation we suggest a number of 
recommendations to be implemented urgently:

    1. While efforts to date by the USG to ease legal restrictions 
applicable to U.S. Government-funded programs in areas controlled by 
prohibited entities are commendable, we implore the USG to extend the 
relaxation of these restrictions to all possible funding sources 
available to U.S. organizations. This may be achieved in two ways: 
first, the issuance of a General License from OFAC allowing U.S. 
persons to engage in certain transactions that may be incidental to the 
famine response; and second, the favorable and expeditious processing 
of specific license requests from U.S. organizations. The NGO community 
stands ready to engage the appropriate USG agencies to develop these 
constructive options to alleviate the effects of famine.
    2. Expanded and speed up funding for the crisis in Somalia to match 
the needs, but also to match the urgency of the response. The crisis is 
happening now, and we need to ensure that funding is available for 
spending within the next few weeks--not in several months down the 
line. Hence we need urgent support from donor agencies within the U.S. 
Government to reduce the lead-time for funding and reduce the 
turnaround time on proposals.
    3. Invest in the long-term resiliency and livelihood protections. 
While we must address the immediate humanitarian crisis at hand in the 
Horn of Africa, we should also take a long-term approach to addressing 
the underlying cause of hunger and mitigate future impacts of 
disasters. Investments in programs that support livelihoods and 
resiliency of at-risk populations are critical to both saving lives and 
saving money, by reducing the far more expensive response necessary to 
address future crisis.

    Thank you, Mr. Chairman. I look forward to answering any questions, 
you and members of the committee have.

    Senator Coons. Thank you very much, Mr. Schaap.
    I hear a common theme. Obviously there are both naturally 
caused or occurring climate-driven causes for this regional 
drought and famine, but also those that arise directly from al-
Shabaab and its control of a significant area. There are some 
real concerns both about the security and logistics of getting 
into the area, but in a more pressing way about the United 
States and the interaction between several of our agencies and 
departments. The opportunity now through OFAC now to get a 
license.
    Mr. Konyndyk, you also had raised some concerns or 
questions about the implementation of the new OFAC license 
opportunity Mr. Schaap also reflected on. We are grateful for 
the role that CARE and Mercy Corps and others play.
    Mr. Schaap raised an issue about how NGOs who receive 
funding other than directly from the United States Government 
would operate, some unresolved questions about the license. 
Would you expand a little bit, as you suggested in your 
statement you would like to, concerns about implementation and 
clarity about the necessary path forward for us to deliver 
assistance appropriately and in a multilateral way?
    Mr. Konyndyk. I am sorry. I would associate myself with Mr. 
Schaap's comments. As we understand it, and we were only 
briefed on this yesterday afternoon, so we are still digesting 
it, and we all have armies of lawyers who are reviewing this 
and whatnot. Our understanding at this point is that the 
license that has been issued would only apply to programs that 
are wholly or partly funded by the U.S. Government. And so, if 
our agencies are working there doing discrete programs that do 
not receive U.S. Government funding or wishing to do that, that 
would not be covered by the license that was issued apparently 
last Friday.
    Senator Coons. So, your concern, if I understand correctly, 
from both of you on behalf of your organizations, is that 
relief efforts that are not directly funded by the U.S. 
Government may still put your organizations at some legal 
risk----
    Mr. Konyndyk. That is correct.
    Senator Coons [continuing]. If they are operating within 
south Somalia.
    Mr. Konyndyk. That is correct. And then the other----
    Senator Coons. And then the other hope that can be resolved 
promptly.
    Mr. Konyndyk. Yes, we hope so as well. The other concern on 
the implementation is just that at this point per our 
understanding, USAID has all the authorities and clearances 
that it needs, and it is going to be a matter of how they then 
translate that in terms of what applies to their partners. And 
that will be a discussion that we will be having with them in 
the coming days.
    Senator Coons. And all three of you and the previous panel 
emphasized the time is of the essence, that there are literally 
tens of thousands of children who are starving, and hundreds of 
thousands who are at risk of or are on the verge of starvation. 
Would further bureaucratic delay in resolving these issues 
strike you as cruel and inappropriate?
    Mr. Konyndyk. Your words, not mine, Senator. I certainly 
think that the administration is moving now with great urgency 
to try and clear these things out of the way. I think that what 
we were told yesterday is an important step forward and a sign 
of sincere good faith on the part of the administration in 
resolving these things. I hope that we are now to a point of 
detailed negotiations rather than kind of big picture political 
will, and I do think that is the case.
    But as I said in my remarks, and as I expand on them in my 
written testimony, I do think there is a larger issue here that 
bears exploration going forward by the Congress and the 
administration of why it even got to this point. I mean, can we 
find some ways of reviewing the law on this so that we do not 
have to go through this long, drawn-out bureaucratic process in 
order to do what generally everyone agrees should be done in 
the first place.
    Senator Coons. Doctor, let us turn to the question of al-
Shabaab. Understandably, they are subject to sanctions by the 
United States. We have done everything we can to restrict their 
opportunity to gain funding for their terrorist activities.
    You referenced both in your written testimony and the 
testimony you just gave to us that there is real opportunity 
here because of some tensions within the organization. Speak, 
if you would, just a little bit further about whether it is 
appropriate for us to be issuing broad licenses and allowing 
humanitarian assistance in, if it might further strengthen this 
terrorist organization.
    Dr. Pham. Thank you. Mr. Chairman, the question of al-
Shabaab really is to understand that it is not a monolithic 
organization.
    Senator Coons. Right.
    Dr. Pham. At its core is a very radicalized, extremist 
leadership with very close connections to some very dangerous 
people in other parts of the world, and we need to be seriously 
concerned. They have operational reach and have shown 
themselves capable of carrying out its acts in neighboring 
countries as well.
    That being said, however, the organization itself is broken 
up. It is a marriage of convenience. Some of the factions that 
are now in al-Shabaab, a year ago were possibly with the 
government; next year--these are clan factions and militias. 
And this is an opportunity. Some of them in places I can name--
Harardhere, for example--have stated, ``Bring us aid. We are 
willing to switch allegiances.'' So, there is an opportunity.
    And this is why the secondary track, the track two policy 
that Assistant Secretary Carson announced last year, is 
important. We need to get that going. It was announced a year 
ago, but we still have not really developed it. This is the 
type of program that would allow us to have the information and 
the partners on the ground who can distinguish where are the 
areas we can work in.
    Right now, it is a theory--it is a concept, a very valid 
one, but we really have not worked it out as well as we should 
have.
    Senator Coons. So, if I understand you correctly, like most 
groups, it is made up of a variety of different splinter 
groups, some that are hardcore jihadists bent on international 
terror, others that, frankly, are local either clan or tribal 
groups that are aligned with al-Shabaab sort out of 
convenience.
    You mentioned in your testimony before there is reason to 
believe that they may be holding by force or threat of force 
thousands of potential refugees who could find assistance 
elsewhere in Kenya or Ethiopia. Why would you think they might 
be doing that?
    Dr. Pham. Several reasons. First, because there have been 
several districts actually in lower and middle Shabelle where 
they did not exercise that type of control, and now they rule 
literally a desert. A 100 percent of the people are gone, 100 
percent of the livestock is dead. They have a desert to 
themselves. They can enjoy it. So, quite pragmatically, if you 
are trying to seek control of territory, you want a population.
    Second, and this gets into some of the quandaries of aid 
delivery, I think they have gambled as well that eventually aid 
is going to flow, and this is where we have to be careful how 
we allow that to flow. And, therefore, the more--and we have 
had this experience in Somalia; I was in there in the 1990s 
when it happened--the more refugees you have, the more 
displaced persons, the more resources will flow to your area, 
not necessarily to those people, but resources you can divert.
    So, some of them may very well be simply holding people so 
they can increase head count and rent seeking behavior.
    Senator Coons. One other country in the region we have not 
referenced at all today is Eritrea, one of the most 
totalitarian regimes in the world, that there is really very 
little information about the conditions on the ground, about 
the humanitarian needs, if I understand that correctly. As I 
was looking at maps, it was literally blank in terms of data. 
Any insight from any members of the panel on the likely 
humanitarian situation in Eritrea, also a country where the 
tension between the security situation, the governance 
situation, and the humanitarian situation is unresolved and 
with an unclear path?
    Dr. Pham. If I may begin, Senator, just to give one index 
of how bad the situation probably is in Eritrea, somewhere 
around slightly under 50,000 people have crossed the border 
into Ethiopia. It is a mine laden trap, and these people have 
risked everything, not just to walk across the desert, but a 
minefield, to get over the border--these are the survivors. And 
so, that just says something about the level of desperation.
    I have met people who have made that passage, who have 
become refugees. I have spoken with them, and the situation is 
pretty dire.
    Senator Coons. Thank you. I have further questions, but I 
will yield to Senator Isakson.
    Senator Isakson. Mr. Konyndyk, I want to ask you a specific 
question regarding what you referred to as a systemic problem 
in the administration regarding licensing. Is the systemic 
problem too much bureaucracy?
    Mr. Konyndyk. I do not know if I would say there is too 
much bureaucracy. I mean, I think that, you know, what we 
have--there are different agencies that have different 
priorities and different angles on some of these issues. And 
the setup we have right now in terms of the legal restrictions, 
the OFAC restrictions, what is prohibited in terms of what is 
considered to be material support, makes it, I think, very 
difficult for those different agencies that all have a stake in 
this to resolve this sort of thing quickly.
    Our suggestion would be to look at, maybe as a first step, 
to our understanding, the Patriot Act exempts medical supplies 
and religious materials from the definition of what would 
constitute material support. We would be interested in 
exploring whether that carve-out could be broadened to include 
other sorts of urgent humanitarian assistance in situations 
like this so that it would not require a long, drawn-out 
bureaucratic process to enable aid agencies to have the legal 
permissions they need to respond in this kind of situation.
    Senator Isakson. On that point, Dr. Pham, it is my 
understanding, well, I know, in fact, in your testimony you 
said that in many cases local NGOs are better equipped to 
deliver aid than might be a nonresident NGO. And SAACID, I 
think, is a group of Somali women that deliver support within 
Somalia, but would probably be prohibited from having assets 
because of this restriction that it only be United States 
delivered funds. Is that correct?
    Dr. Pham. Well, Senator, SAACID--to cite that specific NGO, 
one of their problems was that they were falsely accused about 
a year and a half ago in a U.N. report of having made payoffs 
to 
al-Shabaab. They were exonerated in the subsequent U.N. 
followup report, but that meant 18 months where they were cut 
off from the international funding. And those were 18 months 
they lost.
    But they work very effectively by partnering with 
traditional clan elders, local community members, and that is 
their protection. During the period of fighting in Mogadishu, 
they were only entity, governmental or not, that had operations 
in all 16 districts of the city. It is a tremendous 
organization today. And the scale of what they are delivering 
is amazing, so I want to pay tribute to them.
    If I can turn back--I know my two colleagues are somewhat 
constrained by relationships to comment on the----
    Senator Isakson. That is why I asked you----
    Dr. Pham. Yes. We focus a lot, and we are Americans--we 
focus a lot on perhaps obstacles in our own processes. I think 
we also--in fairness also look at obstacles at the 
international level. The World Food Programme works on a 3-
month delivery cycle. How is it--and I ask myself, how is that 
knowing that this was coming down the line, although they are a 
major resource in the region, they did not put more food in the 
region? Over the weekend, they had two flights that for all 
intents and purposes to Badoa and Mogadishu were for show. They 
took 4 tons of Plumpy to Badoa, about 14 tons, I understand, to 
Mogadishu.
    SAACID is the NGO we spoke on earlier, in a month goes 
through 65 tons just in Mogadishu alone. So, 4 tons is helpful, 
but it really was more for the cameras than anything else 
frankly.
    Senator Isakson. Well, I wanted to be quite clear. I 
understand that it is important that the administration and our 
country do everything they can to prohibit U.S. aid getting 
into terrorist hands, and that is one of the reasons for some 
of the restrictions. But when you do reach a crisis point in a 
humanitarian problem like this, it seems like there ought to be 
expedited procedures, or else the people you are trying to help 
are going to be dead. And that is the comment that I was trying 
to get to, because there is no question these organizations in 
Africa operate on cash flow from corruption. And many of them 
are organizations that are affiliated with al-Qaeda or with 
other nefarious groups around the world. But it is important 
with this many people at threat of losing their lives that we 
have an expedited procedure to the maximum extent possible.
    I noted that Bob Laprade was supposed to testify today, but 
you are in his place. That causes me to make an observation for 
the people here today. Mr. Laprade, who is with CARE 
International, could not be here today because he is suffering 
from malaria. That reminded me that my first trip with CARE to 
Ethiopia, in Awaze Ethiopia, the CARE representative that I 
worked with also had malaria. And so, I want to thank you for 
the risk that you take in very dangerous parts of the world to 
deliver humanitarian aid and hope. People do not, I think, 
sometimes equate the risk and the exposure of their own health 
that CARE and many other NGOs like it put themselves in to help 
other people. So, thank you for doing that.
    One last question for Dr. Pham. You talked in your remarks 
about al-Shabaab keeping people from getting help. They are 
actually stopping refugees from leaving the country to get 
help. Is that correct?
    Dr. Pham. From sources on the ground that I have spoken 
with in the last 24 hours, there appear in lower Shabelle to be 
three different areas. One appears to be a camp of sorts where 
they are actually holding people. Two are just areas where they 
have created enough violence around them more or less to corral 
them in, so it is not a guarded situation, but it is a 
threatening one. And they are preventing people in, it appears 
in two of those cases, from heading to Mogadishu, crossing the 
line over to the area controlled by the African Union 
peacekeepers where aid can get to them. A hundred thousand 
people have already crossed, and they're preventing more from 
going. The other area seems to be to prevent people from 
heading south toward Kenya.
    Senator Isakson. And the goal is to just strike fear in the 
population, or what?
    Dr. Pham. I think it is several fold, and I think it is 
hard to disaggregate. One, to keep people that they can still 
rule. They aspire to rule and ruling on empty land is not what 
they were planning to do. And, two, I think some of it might be 
local interests of local al-Shabaab commanders to have people 
as resources, because people will attract aid, which they hope 
they will be able to tax, divert, or otherwise tap into.
    Senator Isakson. Last quick question. One of the big 
problems in Africa is in a lot of cases, organizations will use 
rape and violence against women as a tool of accomplishing 
their end goal. Do your people on the ground give you any 
indication that al-Shabaab is using that as a tool?
    Dr. Pham. I am not getting reports of anything. There are 
cases of violence against women very clearly, and some of those 
are being documented, but not as a systematic attempt to exert 
control or terror, unlike other tragic cases in Africa.
    Mr. Schaap. May I----
    Senator Isakson. Yes.
    Mr. Schaap [continuing]. Add a point on that? In various 
camps in the region, sexual violence against women is a serious 
problem, and not just within in Somalia, but also outside.
    Senator Isakson. Thank you very much for testifying today, 
all of you.
    Mr. Chairman.
    Senator Coons. I would like to follow up, if I could, Mr. 
Schaap, on a comment you made earlier in response to the 
earthquake that was in Iran. I think 2003 that there was an 
exception to the licensing procedure by OFAC that was granted 
more broadly that might be a useful example here. Could you 
elaborate on that?
    Mr. Schaap. I do not have the technical details as such, 
but we can get back to you on that.
    Senator Coons. I mean, certainly from all of our witnesses 
today, we are looking for a responsible, swift, and appropriate 
path forward. I understand that--just by my comment earlier--I 
understand that different entities within the United States 
Government are charged with enforcing different legal 
obligations, and that sometimes the desire for prompt and 
effective humanitarian assistance runs up against the barriers 
that we put in place in order to prevent assistance from being 
provided, wittingly or unwittingly, to those who are also 
enemies of the United States and pose a real threat to the 
international order.
    I would be interested in your input, if I could--it is for 
my three questions here--first, about future planning, about 
how the United States can better assist the countries in the 
region, particularly here in the Horn of Africa, where the 
climactic conditions seem to be worsening. How do we help them 
build resilience, sustainable capacity, to deal with these 
crises so that we do not face them periodically?
    Second, several of you have referenced threatened cuts to 
U.S. aid. The House has taken up the relevant budget and has 
proposed--I think Mr. Konyndyk suggested it was a 30-percent 
cut over last year, 50 percent over the year 2008 funding 
levels. How do you see our efforts to sustain American 
engagement with development, with assistance, playing out, and 
what suggestions might you have for us on how to help the 
average American understand why there is value in doing this, 
not just from a humanitarian perspective, but a strategic 
perspective?
    Mr. Schaap. I think the need for recovery and resilience 
programming is extremely high, and I think it is important to 
get the planning for that started now even while we are in such 
crisis.
    There are other things that NGOs and others are doing in 
these areas around ensuring livestock health, ensuring 
improvement of natural resource management, vocational training 
to diversify the income streams that people have. CARE does a 
little work on savings groups to help ensure asset 
diversification so people have some liquid assets during a 
drought.
    So, there are a lot of things that can be done, and this 
needs to be scaled up in response to the drought because people 
have lost all of their assets. And we want to avoid a situation 
where after this drought and after this massive crisis, because 
it is going to be massive, people are left for a long period of 
time while agencies are planning for recovery and resiliency 
programming afterward.
    If I may add a point on your earlier comment on 
bureaucratic obstacles and aid delivery coming through quickly, 
this is a serious concern. We are looking at a 2- or 3-month 
window of opportunity in which we can still save lives. The 
pace we have seen, not just with U.S. Government donors, but 
other donors as well, it take multiple, multiple months to get 
through the process. And the added complications of U.S. 
antiterrorist regulations have added significant periods of 
time. And that's really worrying also going forward now that we 
have a short timeframe to prevent more deaths.
    Senator Coons. Thank you, Mr. Schaap.
    Mr. Konyndyk.
    Mr. Konyndyk. Yes, I would, again, fully endorse what Mr. 
Schaap has said about the need to build resiliency. The sorts 
of programs that the U.S. Government has funded many of its 
partners to do in Ethiopia, in Kenya, are a really important 
reason why the impact of the drought there is not as severe as 
what we are seeing in southern Somalia.
    I mean, it is important to note that regardless of the 
political and security factors, the lack of sustained 
development programming going back years in southern Somalia, 
far before the current political configuration was in place, is 
a significant factor in why it is so much worse there.
    And looking forward, we need to invest in a response right 
now that is not thinking just about the next 3 months but about 
the next 5 to 10 years, and trying to rebuild people's 
resiliency and livelihoods as quickly as possible.
    In terms of the U.S. Government's support, the specific 
USAID budgets and engaging the American public, we have been 
very concerned so far that this situation does not seem to have 
really broken through yet in terms of the American 
consciousness in a way that the recent crises in Haiti and 
Japan did. I think that--there is a very clear link between the 
level of American public engagement in a crisis and the level 
of private donations and private support that the public 
provides, but also then the level of support that the U.S. 
Government is motivated to provide.
    And so, I think that obviously we strongly support the 
accounts that I mentioned earlier, and we think that protecting 
those is critical. But it is also really important for U.S. 
political leaders to, I think, to signal to the American people 
just how serious this situation is. After the crisis in Haiti, 
the President and the First Lady were very vocal about the 
needs there, about the importance of providing aid there. We 
have not seen that level of engagement out of the White House 
yet, and I think that that would be really important and really 
helpful. I understand the President has been dealing with some 
other issues lately, but hopefully in the coming month we can 
see more engagement on that.
    And I think as well, you know, for Members of Congress, all 
of them are going back to their districts now for recess. I 
think this is an important to discuss with your constituents. 
And we would love to see, you know, joint calls from the 
Congress and the administration for greater American 
engagement. Thank you.
    Senator Coons. Thank you.
    Senator Isakson.
    Senator Isakson. Following up, Mr. Konyndyk, what guarantee 
or assurance does Mercy Corps give that the funds made 
available to it actually get to the needy communities?
    Mr. Konyndyk. Well, we have a range of measures in place 
for that. As with any private American charity, there are laws 
and procedures that are in place. We get audited every year and 
we make those audit findings public. Those audits are very, 
very intensive, and they are every year.
    We also are part of and collaborate with various 
accountability networks within our sector. There is a group 
called Interaction, which is sort of the umbrella organization 
for all American international charities, which has member 
standards that we adhere to that get to exactly that. And then 
also, as a partner of the U.S. Government, there are very, very 
rigorous standards that we have to adhere to in order to 
qualify for U.S. Government funding.
    So, there are a lot of kind of overlapping accountability 
standards and audits, and all of those things which help to 
hold us to account.
    Senator Isakson. In those standards, or in your own 
internally controlled standards, is there an acceptable amount 
of--I understand we are dealing in very difficult areas of the 
world and very difficult circumstances is there an acceptable 
level of leakage and then one upon which there is no tolerance?
    Mr. Konyndyk. There is no--you never want to say ``here is 
our acceptable level of leakage,'' because then you will be 
sure to get that level of leakage.
    Senator Isakson. Right. I understand that is how things get 
worse.
    Mr. Konyndyk. So, I mean, our priority is absolutely to 
ensure that the aid gets where it is supposed to go. I think 
that we have a very low tolerance for leakage. It is always on 
a case-by-case basis. Looking at Somalia specifically, and as I 
written in earlier articles on this, one of the factors that 
caused us to scale back our operations in the south back in 
2010 even before we were formally expelled, was that we were 
seeing unacceptable levels of interference. And so, no level of 
leakage is really tolerable, and I think that what we are 
willing to work with is minimal, but it cannot be defined 
except on a case-by-case basis.
    Senator Isakson. Mr. Schaap is nodding his head in 
agreement with that answer I think, but I want to be sure and 
give you a chance to express yourself.
    Mr. Schaap. Yes. I just want to add to that is that there 
is also in Nairobi with agencies working in Somalia a constant 
dialogue about what mechanisms we have in place to severely 
limit the ability of diversion to happen. And there is the 
leadership of the U.N., the humanitarian coordinator on this 
has been quite strong in the last couple of months to really 
push back on those initiatives that have been pushing for 
taxation, et cetera, et cetera on the ground. And our systems 
internally are very tight to make sure that whatever we pledge 
to provide to beneficiaries are actually going to beneficiaries 
and not anywhere else.
    Senator Isakson. Thank you, Mr. Chairman.
    Senator Coons. Senator Isakson, thank you very much for 
joining me. I would like to thank Mr. Konyndyk, Dr. Pham, and 
Mr. Schaap for your personal service, for the risks you've 
taken, in order to deliver relief, for the leadership role that 
your organizations have taken, and for the insight you have 
given us and the world as folks have deliberated over this 
humanitarian crisis.
    As you have helped make clear today, this is the gravest 
humanitarian crisis facing the world today. It was foreseeable. 
It was one for which preparations were made and where there is 
investment that has made it less severe than it otherwise might 
have been. But it is one that can be expected to occur again 
because of the combination of governance, climactic, regional, 
economic, and social factors in the Horn of Africa.
    And so, it is my hope that we will be working together, the 
people of the United States, the nonprofit community, have 
private citizens to heighten public concern, to strengthen 
international engagement, to not just respond to this immediate 
and very real crisis that will likely take tens of thousands if 
not hundreds of thousands of lives, but to lay the groundwork 
for preventing a recurrence of this crisis, those parts of it 
that were entirely preventable.
    Senator Isakson and I share a view that Africa is a 
continent of enormous promise, and it is tragic to have this 
particular crisis be what most Americans will be seeing about 
Africa in the month ahead. It is my hope that they will be 
seeing more of it, and I am grateful for your role in 
highlighting and addressing this very serious humanitarian 
crisis.
    Thank you for your testimony. I will keep the record open 
for the Senators who were not able to join us today to submit 
statements until the close of business, Friday, August 5.
    Senator Coons. And this hearing is adjourned.
    [Whereupon, at 11:52 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


     Prepared Statement of United Nations Children's Fund (UNICEF)

    Chairman Coons, Senator Isakson, members of the subcommittee, thank 
you for focusing attention on the unfolding tragedy in the Horn of 
Africa, and for providing UNICEF with this opportunity to share our 
perspective on this devastating situation.
    This is a children's crisis. The haunting images we have seen and 
the facts of this emergency speak for themselves.
    Across Somalia, Ethiopia, and Kenya, an estimated 2.3 million 
children are acutely malnourished. These are already among the world's 
most disadvantaged children, living on the brink and becoming more 
vulnerable by the day, deprived of virtually every human need. More 
than a half million severely malnourished children are at risk of 
imminent death. Those children who do survive face huge threats to 
their physical and mental development.
    While the situation is most dire for those inside Somalia and the 
refugees arriving in Kenya and Ethiopia, a large number of people 
affected by the drought live outside the camps, in communities across 
the region. The impact of the drought is threatening people's 
livelihood and, for the large nomadic population, their way of life. 
This is important to consider when we look beyond immediate life-saving 
needs, and focus on building resilience to avoid this situation in the 
future.
    UNICEF has worked in Somalia for decades. We are currently one of 
the few agencies operating in southern Somalia. We are gearing up to 
increase delivery of critical supplies to some of the hardest hit areas 
there. Over the next 2 months, we expect to expand blanket 
supplementary feeding to reach 150,000 families, including 180,000 
children under the age of 5 in Somalia.
    We are also planning to more than double the capacity for treatment 
of severe malnutrition in Somalia, increasing coverage from the current 
7,500 children per month to at least 17,000 children per month through 
a network of over 200 outpatient therapeutic feeding facilities in 
southern Somalia.
    But food alone is not enough. For children, an effective response 
requires much more. To save their lives and safeguard their futures, we 
need an integrated response that includes miracle foods like Plumpy-Nut 
and therapeutic milk; breastfeeding support; clean water and proper 
sanitation; basic immunizations against killers like measles and polio; 
and child protection programs to keep children safe. In fact, in many 
instances it is diseases like these that kill children who are too weak 
from lack of food to fight infection.
    With our partner U.N. agencies, including the World Food Programme 
and the U.N. High Commissioner for Refugees, UNICEF is doing everything 
we can to provide this critical support. This includes: supplying 
health clinics and outposts that serve an estimated 2.5 million women 
and children with sufficient essential drugs, vaccines, basic equipment 
and training; reaching millions of children with measles vaccinations, 
Vitamin A supplementation, and deworming. At the same time, we are 
working to expand access to education to hundreds of thousands of 
primary school-age children, and we are working to establish 343 new 
Child Friendly Spaces to provide psychosocial support, recreational 
materials, food, education activities, health and hygiene education, 
and clean water for an additional 30,000 children.
    UNICEF is also scaling up our response in Kenya and Ethiopia in 
health, nutrition, water, sanitation, and hygiene promotion. In Kenya, 
an emergency measles vaccination campaign is underway for more than 
230,000 children in Dadaab camp and neighboring host communities. We 
are leveraging this campaign to provide other emergency health 
interventions such as polio vaccinations, Vitamin A supplements, and 
deworming.
    In Ethiopia, we are expanding our response to measles outbreaks in 
drought-affected areas for more than 650,000 children, and working with 
UNHCR for the vaccination of refugee children upon arrival as part of 
the routine screening.
    The need for all of us--U.N. agencies, NGOs like those represented 
at this hearing and others--to expand these efforts is urgent, and 
securing immediate funding is crucial. We at UNICEF greatly appreciate 
the generosity of the donor community, including the U.S. Government. 
And for the U.N. as a whole, public and private donors have committed 
more than US$1 billion this year to help respond to humanitarian needs 
in the Horn of Africa. But there is a significant shortfall in funding. 
To reach the greatest number of children possible, we must close this 
gap as quickly as possible.
    As we noted at the outset, this is a children's crisis. The 
magnitude of suffering and loss is tremendous, and the stakes have 
never been higher. With no significant harvest in sight for the next 6 
months, this crisis may well deepen. But we must not despair. For we 
have the obligation, and potentially the means, to save literally 
hundreds of thousands of children's lives--if we act now.
     Once again, we thank the subcommittee for its leadership in 
addressing this humanitarian catastrophe.
                                 ______
                                 

   Responses of Assistant Administrator Nancy Lindborg to Questions 
                Submitted by Senator Benjamin L. Cardin

                   long-term agricultural investment
    Question. With over 12 million people in the Horn that currently 
need life-saving assistance and access to food, water, and sanitation, 
this crisis clearly requires a response now. However, it also points us 
back to the need for continued investment in long-term agricultural and 
food security programs. In order to put an end to the cycle of 
recurring crises and vulnerability in the Horn, we must continue to 
invest money in programs abroad that support infrastructure development 
such as roads and irrigation systems, value chain development, and 
environmentally sustainable agricultural practices. We need to expand 
economic opportunity for women, through strengthening their access to 
markets and decisionmaking power and help them to sustain economic 
livelihoods that can be resilient in the face of crisis. How can the 
U.S. Government and its partners ensure that they are not only 
responding to the current crisis but also working to lay the foundation 
for stronger, more sustainable local and regional food systems that can 
withstand crises and better respond to emergencies in the future?

    Answer. This question is at the heart of our drought response as we 
see the positive impact of programs that have built resilience and the 
critical challenges of building longer term sustainability even as we 
meet emergency needs.
    In countries prone to cyclical droughts and floods, reducing social 
and economic vulnerability is a necessary step toward sustainable (and 
equitable) food security. The primary responsibility for this rests 
with government, which means that the prospects for reducing 
vulnerability in Somalia are unlikely to improve until a legitimate 
form of governance is in place. Even in Kenya and Ethiopia, despite 
good policy frameworks, governance issues contribute significantly to 
chronic vulnerability and food insecurity. However, both governments 
have publically committed to increasing their investment in these 
previously marginalized areas, and the U.S. Government is well 
positioned to work with other donors and development partners to align 
resources and programs in support of these efforts.
    The Senator's question raises an issue that is at the heart of the 
Presidential Initiative, Feed the Future (FTF). While the bulk of 
resources provided directly through FTF tend to be focused on achieving 
broad-based agriculture growth, the initiative provides a framework for 
the integration of a wide range of program approaches necessary for 
increasing the resilience of households and communities to the impacts 
of repeated climatic shocks, including community management of acute 
malnutrition, disaster risk reduction, productive safety nets, 
livelihood diversification--all supported by food and other disaster 
relief programming. These are activities on which development 
programming can build, as long as appropriate levels of investment in 
those areas and commodities most likely to trigger and drive 
sustainable long-term economic growth can be maintained. This approach 
recognizes that in several of our Feed the Future focus countries--most 
notably Kenya and Ethiopia--a ``comprehensive'' approach to food 
security will require a deliberate focus on reducing chronic 
vulnerability as well as stimulating economic growth.
    The current crisis has underscored the need for a mechanism to 
increase coordination and resource integration. The Administrator has 
established a ``Joint Planning Cell'' (JPC) comprising humanitarian and 
development experts from the Kenya, Ethiopia, and Regional missions, 
and the Bureaus for Democracy, Conflict and Humanitarian Assistance; 
Food Security; Africa; Global Health; and Economic Growth, Agriculture, 
and Trade.
    Externally, we are working with the Africa Union, government 
counterparts, regional authorities, other donors, and development 
partners to ensure that emergency efforts are sustained while a process 
for coordinated action and investment in medium to longer term 
development in the region's arid and semiarid lands--those areas most 
vulnerable to climatic shocks and chronic food insecurity--is 
established.
    Momentum is building, and a series of high-level events in East 
Africa, the United Nations General Assembly, and the World Bank fall 
meetings, are being used to build an international coalition focused on 
this effort. The U.S. Government is increasingly looked to for 
leadership in the areas of early warning, nutrition, and climate-
sensitive agricultural research and development--the key components of 
sustainable global food security. We are in the position to leverage 
significant foreign and domestic development resources, however, we 
must continue to demonstrate a sustained level of commitment--of both 
humanitarian and development resources--something that is increasingly 
being challenged in FY 2012 budget negotiations.
                   consultation/engagement with women
    Question. As in almost all crisis situations, women have been 
disproportionately impacted by the drought and famine in the Horn. 
Women and children have been identified as most vulnerable to 
malnutrition, communicable disease, and ultimately, death. Recently, 
Deputy Administrator Don Steinberg insists that women be front and 
center in the response to the crisis, not just as victims but as a key 
part of the solution. How are the U.S. Government and its partners 
involving women and women's civil society organizations in the planning 
and execution of its programs and working to ensure that women are 
active participants in the response efforts?

    Answer. The U.S. Government's humanitarian assistance partners in 
the eastern Horn of Africa are taking steps to ensure that the most 
vulnerable community members, including women and children, are both 
targeted by the assistance and are able to participate in the response. 
From August 11 to 15, 2011, the USAID Disaster Assistance Response Team 
(DART) visited and conducted a focus group with Masai pastoralist women 
and girls in drought-affected Kajiado County, Kenya. USAID/DART 
members, including a gender specialist, also conducted an assessment in 
Oromiya and Southern Nations, Nationalities, and Peoples (SNNP) regions 
to assess protection and gender mainstreaming in ongoing nutrition and 
water, sanitation, and hygiene programs. The assessment in both Kenya 
and Ethiopia found that relief agencies have put in place careful 
targeting procedures that involve community-wide consultation to ensure 
that the most vulnerable community members, including women and girls, 
are included in beneficiary lists. Additionally, agencies have put in 
place complaints procedures that enable community members to notify the 
relief agency if, for any reason, they do not receive assistance that 
was targeted for them.
    Relief agencies also design assistance to ensure that women and 
girls can participate in the response intervention. For example, 
agencies implementing cash-for-work programs design work activities 
that are physically feasible and culturally appropriate for women, and 
enable women to work on a flexible schedule, which allows them to both 
participate in income-generating opportunities and to attend to 
household responsibilities. USAID implementing partners also rely 
heavily on female health extension workers to implement health and 
nutrition programs in health posts and stabilization centers that 
target vulnerable women and children. The programs use gender-balanced 
teams and predominantly rely on female staff to attend to female 
patients. These health extension workers also make referrals in the 
communities they work in for the transport of women and children to 
stabilization centers, minimizing dangers they would face during long 
distance travel.
                         gender-based violence
    Question. Violence against women and girls is often severe in 
situations of crisis and natural disasters and the current famine in 
the Horn of Africa is no exception. Women and girls are facing rape and 
sexual violence as they travel to and live in refugee camps. Reports of 
sexual violence for the month of June alone are four times the amount 
from January through May. Women just arriving to camps, who are living 
in tents and makeshift shelters, consistently report sexual violence as 
a threat to fuel collection and access to basic services such as water 
and food. How are USAID and the Department of State working with 
humanitarian organizations and U.N. agencies to prevent and respond to 
this violence?

    Answer. USAID strongly encourages its humanitarian partners to 
incorporate protection measures into all humanitarian assistance 
activities through protection mainstreaming. Protection mainstreaming 
seeks to minimize risks for harm, exploitation, and abuse for disaster-
affected populations--including gender-based violence. Women and girls 
are particularly vulnerable to harm, exploitation, and exclusion, and 
many protection mainstreaming efforts are designed to ensure their 
inclusion, participation, and safety in accessing relief activities.
    There are a variety of ways in which USAID-funded relief programs 
in the Horn response are mainstreaming protection; for example, NGOs 
implementing cash-for-work and cash grant activities consult with all 
community members, including women and other potentially marginalized 
groups, to target the most vulnerable households. Additionally, relief 
agencies design cash-for-work activities and schedules that enable 
women to participate, by offering work activities that are culturally 
appropriate and safe for women, and by allowing a flexible schedule 
that enables women to manage both household responsibilities and 
income-generating activities.
    USAID's implementing partners also consult with women and girls 
about the placement of water points, latrines, and distribution sites, 
to ensure that they are safely accessible for women and girls. To limit 
the risk for domestic violence when women are targeted with food 
assistance, humanitarian agencies may conduct awareness-raising within 
communities to explain to men and boys the reasons for providing 
assistance to the women, and pointing out to benefits to the entire 
household. In addition, USAID's gender and protection advisors 
routinely review all NGO funding proposals to encourage potential 
partners to incorporate protection and gender mainstreaming efforts in 
their proposed activities.
    USAID also works closely with the State Department's Bureau of 
Population, Refugees, and Migration (PRM) to ensure a coordinated USG 
response supporting refugee, host-community, and internally displaced 
populations. USAID is currently exploring opportunities with PRM to 
coordinate support for the provision of fuel efficient stoves with the 
multiple goals of preventing GBV during wood collection as well as 
mitigating tension between refugee and host community populations while 
reducing impact on the environment.
                                 ______
                                 

   Response of Deputy Assistant Secretary Reuben Brigety to Question 
                Submitted by Senator Benjamin L. Cardin

    Question. Violence against women and girls is often severe in 
situations of crisis and natural disasters and the current famine in 
the Horn of Africa is no exception. Women and girls are facing rape and 
sexual violence as they travel to and live in refugee camps. Reports of 
sexual violence for the month of June alone are four times the amount 
from January through May. Women just arriving to camps, who are living 
in tents and makeshift shelters, consistently report sexual violence as 
a threat to fuel collection and access to basic services such as water 
and food.

  <bullet> How are USAID and the Department of State working with 
        humanitarian organizations and U.N. agencies to prevent and 
        respond to this violence?

    Answer. The State Department's Bureau of Population, Refugees, and 
Migration (PRM) prioritizes the protection of refugee women and girls, 
including prevention and response to gender based violence (GBV), in 
all displacement crises, and has supported GBV interventions for 
refugees in the Horn of Africa and beyond for many years. Despite 
significant gains on this issue, the recent influx of new refugees is 
posing new challenges that require additional resources. Refugees are 
at particularly high risk during flight and upon arrival at camps where 
humanitarians are struggling to ramp up to keep pace with the rate of 
new arrivals (1,500 a day to Kenya and 100-300 a day to Ethiopia). 
Women and girls are particularly vulnerable.
    PRM is working with our main partner, the Office of the United 
Nations High Commissioner for Refugees (UNHCR), and nongovernmental 
organization (NGO) partners and has provided emergency funding to 
ensure that efforts to prevent and respond to GBV are scaled up. UNHCR 
has completed a rapid GBV assessment to identify priority interventions 
and also increased its registration capacity--a critical step in 
accessing services. UNHCR has also deployed protection and community 
services officers to both Kenya and Ethiopia and stood up protection 
teams to increase protection monitoring, systematically interview new 
arrivals and conduct border monitoring. It is also training 
implementing partners on vulnerability screening in order to fast track 
those with special needs through the registration process.
    PRM emergency funding to UNHCR, the International Organization for 
Migration (IOM), and NGO partners is supporting a number of activities 
including: (1) expansion of transportation for refugees from borders to 
camps to mitigate the risk of attack in transit, (2) awareness raising 
campaigns, particularly for new arrivals who may not know of services 
available, (3) referral pathways which inform humanitarian staff, 
survivors and communities about response procedures, (4) safe havens 
for survivors, (5) emergency medical interventions, (6) mental health 
services, (7) shelter, and (8) hygiene. PRM has also deployed staff to 
monitor the refugee response in Dadaab, Kenya, and in Ethiopia.
    While PRM is focused mainly on the refugee situation, we are 
working closely with colleagues at USAID to ensure a coordinated and 
thorough response as refugee-hosting communities are also very 
vulnerable and disputes over limited resources often incite GBV. 
USAID's Office of Foreign Disaster Assistance (OFDA) has provided 
nearly $80 million in support to drought-affected populations and 
USAID's Office of Food for Peace has contributed nearly $400 million in 
food aid toward the crisis in the Horn, a portion of which goes to 
refugees but also to the drought-affected host communities. We are 
exploring with OFDA opportunities to support provision of fuel 
efficient stoves with the multiple goals of preventing GBV during wood 
collection as well as mitigating tension with host communities and 
reducing impact on the environment.

                                  <all>

</pre></body></html>
